<html>
<title> - THE INTERNATIONAL SPACE STATION: A PLATFORM FOR RESEARCH, COLLABORATION, AND DISCOVERY</title>
<body><pre>[Senate Hearing 112-834]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-834

                    THE INTERNATIONAL SPACE STATION:
         A PLATFORM FOR RESEARCH, COLLABORATION, AND DISCOVERY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2012

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

85-472 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
             Richard M. Russell, Republican Staff Director
            David Quinalty, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 25, 2012....................................     1
Statement of Senator Nelson......................................     1
Statement of Senator Hutchison...................................     2
Statement of Senator Boozman.....................................     4
Statement of Senator Rubio.......................................    40

                               Witnesses

Donald R. Pettit, Astronaut, National Aeronautics and Space 
  Administration.................................................     6
William H. Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations, National Aeronautics and Space 
  Administration.................................................     7
    Prepared statement...........................................     8
Thomas Reiter, Director, Human Spaceflight and Operations, 
  European Space Agency..........................................    13
    Prepared statement...........................................    15
James D. Royston, Interim Executive Director, Center for the 
  Advancement of Science in Space................................    18
    Prepared statement...........................................    20

                                Appendix

Hon. John D. Rockefeller IV, U.S. Senator from West Virginia, 
  prepared statement.............................................    53
Response to written question submitted by Hon. Bill Nelson to:
    Donald R. Pettit.............................................    53
    William H. Gerstenmaier......................................    55
    Thomas Reiter................................................    55
    James D. Royston.............................................    56
Response to written question submitted to William H. Gerstenmaier 
  by:
    Hon. Amy Klobuchar...........................................    56
    Hon. Mark Warner.............................................    57
Response to written question submitted by Hon. Amy Klobuchar to 
  James D. Royston...............................................    58

 
                    THE INTERNATIONAL SPACE STATION:
                        A PLATFORM FOR RESEARCH,
                      COLLABORATION, AND DISCOVERY

                              ----------                              


                        WEDNESDAY, JULY 25, 2012

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good morning, everybody.
    Thank you for coming.
    Senator Hutchison and I wanted, along with Senator Boozman, 
who is our Ranking Member of this subcommittee--John, come on 
over here closer.
    [Laughter.]
    Senator Nelson. The three of us wanted to have this hearing 
today so that the American people know what is going on in 
space. That there is this extraordinary contraption that is 
about 240 miles above the Earth that is as large as from the 
end of one end zone of a football field to the other. That is 
120 yards. And as wide as a football field.
    And if you will just look at the NASA model there, you will 
see that that is certainly true. If you look at all the 
components there, you will see that part of it is Russian, of 
which the Soyuz docks there, which is the vehicle that comes 
and goes and most recently, since the Space Shuttle was retired 
a year ago, is the vehicle that we have delivering crew until 
we have the American rockets that are man-rated with all the 
redundancies and escape systems that are being developed as we 
speak.
    But in addition, we have a number of different payloads 
that are delivering cargo, the most recent of which was the 
successful flight and successful delivery of cargo by one of 
the American commercial ventures, SpaceX. And as we speak, we 
have already rendezvoused a Japanese space module that is 
delivering cargo, and it will be docking within a matter of 
days.
    There is also a crew on a Soyuz that has launched. And have 
they docked yet? Oh, it is the Progress module, which is a 
Russian module. It is in the vicinity of the Space Station, and 
they are working out the sequencing for the delivery of cargo 
from the Japanese module as well as the Russian Progress 
module.
    So there are a number of these payloads that are going up. 
In the case of SpaceX, it also had the delivery coming down of 
experiments that were loaded onto the spacecraft that returned 
successfully to Earth.
    Now, I want to toot the horn of Senator Hutchison, but I 
want her to hear me tooting her horn.
    [Laughter.]
    Senator Nelson. Senator Hutchison is responsible for the 
American laboratory module to be designated a National 
Laboratory. Our national labs are some of the great assets of 
this country. Los Alamos is just one, for example.
    The International Space Station, the American module, is 
designated a National Laboratory. And part of what the three of 
us wanted today to do is to have this testimony from the people 
who best can tell us, including our American astronaut who just 
returned and who has spent in the course of three space flights 
over one year in orbit.
    And Dr. Pettit is going to share with us a number of these 
experiments and real-life things that are beginning to happen, 
such as the vaccines that we have already mentioned in the last 
hearing that we had on the progress of the overall space 
program.
    So, with that, I have other comments that I will make later 
on. Senator Hutchison, let me turn to you and then to Senator 
Boozman.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. OK. I just wanted to open--I just wanted 
to open today's hearing because we have lost a space pioneer. 
Sally Ride did so much to promote space, and even though she 
tried to get out of the spotlight, she just attracted so much 
attention because she was interesting, she was committed to 
physics and science, and she was committed to getting girls to 
start taking the STEM courses.
    And when I wrote a book in 2004, I did chapters on the 
women pioneers in different fields. So I did education, 
politics, government, sports, and aviation. And then I 
interviewed women who were still breaking barriers in the same 
fields.
    So my aviation chapter was Amelia Earhart and Jackie 
Cochran. And my interview was Sally Ride. What could be more 
perfect than the first women to actually fly the long distances 
and prove women could be great pilots, and then the first woman 
in space?
    And in my interview, I asked different questions about what 
was the most important trait for her success, and she said it 
was the ability to work with other people, which she found very 
helpful as the first woman astronaut. And I said, ``Oh gosh, 
that is interesting. I would have thought you would have said 
perseverance.'' And she said, ``Well, that is a close second.''
    And then I asked her what was her most helpful childhood 
memory, and she said, ``You know, it is funny. It was actually 
an issue in school, and I got discouraged by something. I don't 
remember what. But I came home and I was very down, and my 
father basically said, `Well, you have just got to reach for 
the stars.' ''
    She said, ``That is ridiculous to think about right now,'' 
and she said, ``but it did happen.'' So I think we all owe her 
a great debt of gratitude, and I just wanted to start this 
hearing by recognizing how much she gave.
    I want to thank both the Chairman and the Ranking Member of 
the Subcommittee for being here because Senator Nelson and I 
have done so much to keep the emphasis and the importance of 
NASA in the forefront. I am a budget cutter. I am a person that 
wants to set the top line of a budget, but then it is so 
important that we set the priorities for what goes in that 
budget.
    And Senator Nelson and I, and many others, have tried to 
assure that we don't eat our seed corn, that we continue 
research, that we continue to reach for the stars, to go beyond 
where we are now. And NASA is the agency that can do that.
    And there have been people who have tried to abolish NASA, 
frankly. And I think that going forward, I will be certainly 
very comfortable with the ranking member, John Boozman, who has 
done a great job of learning the issues and where we are. And 
he has hit the ground running, and I am so appreciative for 
Senator Boozman and his interest.
    Let me say that establishing our part of the Space Station 
as an American national laboratory was a great accomplishment 
in that it opened the Space Station for research from outside 
entities. And it can be private companies. It can be 
universities. It can be opened to anyone who is going to do 
research that can only be done in space. And we all know you 
can only do certain experiments in space because of the 
microgravity conditions, and you can't duplicate that on Earth.
    So finding out what is out there is so important for our 
future. And we have seen what exploring space has done for us 
and national security, being able to put satellites up there 
and do satellite surveillance, satellite-guided missiles has 
helped our national security so much.
    But now we have this laboratory, and one of the issues of 
this hearing is going to be what we are doing there and 
certainly are we going to extend it further than 2020, or is 
2020 its life and what are we going to do to fully utilize it?
    I was at Johnson Space Center a few months ago, and I saw 
the hits detected on the Alpha Magnetic Spectrometer. One of 
the almost-casualties of the budget cutting without 
establishing priorities was that we were told that there 
wouldn't be room for the Alpha Magnetic Spectrometer to be 
taken into space by a former NASA Administrator, and many of us 
fought back.
    And Dr. Sam Ting fought back, the Nobel Laureate at MIT, 
who felt that we had to have that up there to detect the cosmic 
rays and try to determine if there is dark matter and what it 
is and what effect it might have on the expansion of the 
universe. And I am sitting in the Johnson Space Center, looking 
at the hits on the Alpha Magnetic Spectrometer, and it is so 
far 18 billion hits of cosmic rays. More than even Sam Ting 
thought we would get in this timespan.
    And so, this is a very basic science that we are doing 
there that could lead to any number of things in the 
determination of what the universe is, and also if there is 
dark energy, is it something that can be harnessed? No telling.
    And as Dr. Ting so aptly points out, almost all of the 
major research that we have done since we went to NASA and set 
NASA up, everything that we went into to research was for a 
purpose that is not what we got, but what we got was even more 
important. And that is why continuing the priority of NASA and 
space exploration is so important for us and our European 
partners, for our own quality of life and capabilities to 
expand.
    So, Mr. Chairman, thank you very much for holding this 
hearing. I did request this hearing because I want to know what 
we are doing up there.
    And so, I am looking forward to hearing from all of you, 
from your different perspectives. But I do hope that as I am 
going out the exit door that we are able to excite the American 
people, as we have in the past, on what the future is, and I 
thank you all for being here.
    Senator Nelson. Senator Boozman?

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you very much, Mr. Chairman.
    And I have a very eloquent statement that I would like to 
put in the record in the interest of time, with your 
permission.
    But I appreciate Senator Hutchison mentioning Sally Ride. I 
have got three daughters that are all grown now and have done 
well and very independent. But looking back, it is individuals 
like this, the example that you truly can do anything that you 
want as a female now, that has certainly not always been the 
case. And so, again, we so appreciate her example in so many 
different ways.
    I want to thank you two, Senator Nelson and Senator 
Hutchison, for really championing this for so many years. 
Senator Hutchison mentioned the ability to get along as 
something that was so important, and certainly you two have 
modeled that in working together so closely, creating a very 
bipartisan group not only here, but also--and it is difficult--
working with our House colleagues such that we have this 
bipartisan bicameral situation, which truly is unique.
    There is not very many situations like this. So I do 
appreciate your all's leadership so very much.
    I am going to be running in and out. I have got a markup in 
EPW, and so in a little bit, I have got to sneak out in just a 
second. In fact, Senator Boxer and Senator Inhofe will grab me 
by the throat if I don't get over there in a minute.
    It is a unique committee. We are going to be voting on the 
Great Apes Act, and then you have also the Safe Chemicals Act. 
So there is a little something for everybody over there. But we 
do appreciate you all being here, and we certainly appreciate 
your efforts.
    Thank you.
    Senator Nelson. Sally Ride flew twice. She flew in 1983 and 
1984. And I will never forget that launch the first time, she 
being the first American woman in space. There was a chorus 
that went up, ``Ride, Sally Ride.'' And I think she captured 
the spirit of America in her participation in the space 
program.
    She was a Ph.D. in electrical engineering. And after she 
left NASA, she never stopped working in order to inspire the 
next generation of explorers.
    Now since the subject today is the Space Station, this 
thing started when a Navy SEAL, Bill Shepherd, opened the hatch 
on November 2, 2000, and he floated from a cramped capsule into 
the Space Station. And thus, he began as the commander of 
Expedition 1, and the International Space Station has been 
continuously occupied ever since.
    The Act that Kay Bailey was mentioning a while ago extended 
the ISS operations until 2020. It authorized that. But once you 
hear about what is going on today on the Space Station, I think 
it is very shortsighted to think that this thing is going to be 
cutoff in 2020. But that the research will continue on this 
extraordinary facility, of which it has a pressurized volume as 
large as a Boeing 747. That is how big it is internally.
    And then, once we are at the end of the design life of it 
in low-Earth orbit, some 240 miles up, circling the globe every 
hour and a half, what is the likely future for it? Perhaps to 
boost it further, maybe to the Lagrangian point between the 
Earth and the Moon, which is the point that the Earth's gravity 
stops and the Moon's gravity starts. Or possibly that 
Lagrangian point on the other side of the Moon.
    And maybe as a future base, parts of it--not necessarily 
the whole thing, but maybe parts of it--could be used in that 
situation then as a way station if we decide in our future 
exploration that we want to go to and from the Moon's surface 
again. These are the possibilities.
    And so, today, we are very fortunate to have a very 
distinguished panel of witnesses to talk about the 
accomplishments. Bill Gerstenmaier is NASA's Associate 
Administrator for Human Exploration and Operations. We look 
forward to continuing the discussion that we started last month 
about the commercial space operations to and from the Space 
Station and the scientific discoveries that we talked about 
last time.
    We also have Thomas Reiter. He is from the European Space 
Agency, one of our partners. This is the International Space 
Station. And he is one of two Space Station astronauts with us 
today on this panel. He spent over 5 months on the ISS, and he 
is the European Space Agency's Director of Human Space Flight 
and Operations. And he is going to share ESA's perspective on 
operations and research aboard the ISS.
    From the Center for Advancement of Science in Space, we 
have James Royston, and he serves as the Interim Executive 
Director. CASIS is a nonprofit organization working with NASA 
to manage a significant portion of the ISS research. And he 
will touch on how CASIS will help us get the most out of our 
Nation's investment in the Space Station.
    And then we have Dr. Donald Pettit, who just returned on 
July 1. This last time he was on the station was 193 days. He 
has flown in space three times, as I mentioned earlier, and he 
has lived aboard the station twice. His creativity and his 
technical wizardry make him an outstanding example of what the 
human element brings to research and discovery.
    So I am going to take the privilege of the chair, and I 
have already consulted with Senator Hutchison.
    Dr. Pettit, we are going to start with you. We would like 
to hear from you.
    Welcome home.

STATEMENT OF DONALD R. PETTIT, ASTRONAUT, NATIONAL AERONAUTICS 
                    AND SPACE ADMINISTRATION

    Dr. Pettit. Thank you, Senator.
    It is an honor to be here and to be able to tell stories of 
what it is like to be in space. There are 7 billion people that 
live on this planet. There are 6 people currently that can call 
space their home, and it is an incredible privilege to be part 
of the 6 people that are currently living off of this planet.
    And with that privilege comes a responsibility when you 
return to tell stories about what it means to explore. And this 
is pretty much universal to any explorer that comes back in 
whatever period of exploration that they belong to. They tell 
stories. They talk about the meaning of the exploration. They 
talk about why we explore, and they incite ideas and thoughts 
in people who don't have the opportunity to go off and do that 
exploration themselves.
    And this hinges on frontiers. Space is very much a 
frontier. We have frontiers all around Earth. They could be 
under the stage of a microscope. It could be through the 
eyepiece of a telescope, bottom of the ocean, in the Arctic and 
Antarctic regions. There are frontiers that surround us.
    Space happens to be one of many frontiers we can explore. 
It happens to be the frontier where I am spending my career 
exploring. And in this frontier, your Earth-honed intuition 
does not apply. Things don't work the way that you think they 
should. The answers are not in the back of the book.
    And this makes a place that is rich in discovery. And I 
think that is one reason why we go to these frontiers. And when 
we go to these frontiers, we can see things that you never 
imagine because nature has an imagination that is greater than 
what human beings have. And the only way we will know what is 
there is by virtue of going and seeing for ourselves what 
happens to be in this frontier, and from that, it can enrich 
our minds and tickle our imaginations.
    And initially, these observations enrich your society, and 
eventually, you will make technology and other discoveries, 
other advances that will enhance the standard of living and 
enhance the arts, enhance theater, film, literature. It will 
embed itself into your society. And I think you can conclude 
that exploration in these frontiers is a metric for how viable 
your particular country happens to be.
    I am happy to be here and answer any questions that you 
have.
    Thank you.
    Senator Nelson. We will get into that.
    Mr. Gerstenmaier?

        STATEMENT OF WILLIAM H. GERSTENMAIER, ASSOCIATE 
   ADMINISTRATOR, HUMAN EXPLORATION AND OPERATIONS, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Gerstenmaier. Thank you very much.
    The title for this hearing, ``The International Space 
Station: A Platform for Research, Collaboration, and 
Discovery,'' I believe is extremely fitting. Through the 
discussion today, I hope we will all gain a deeper 
understanding of the amazing facility in space that we have 
created.
    I also hope we gain through concrete examples an 
understanding of what is happening every day onboard the 
International Space Station. We are not simply talking about 
enabling research. We are really doing research every day 
onboard the Space Station.
    The station is an amazing international research facility. 
The ISS major assembly is complete, and we are beginning to see 
significant research activity. Research was done during the 
assembly phase, but now we are focusing on the research itself.
    Today, the focus on research, and we are trying to find 
ways to make it easier for the researchers to get their 
experiments to ISS. We are also trying to get the word out 
about the research facilities that are in place onboard the 
Space Station.
    You know, there are fluid experiment racks, combustion 
racks, glove boxes, Earth observation facilities, material 
processing facilities, a vacuum interface, ample power and data 
interfaces, to name a few of the major facilities that are 
onboard the Space Station. There is also a crew available to 
perform the research and interact with the experiments.
    This is a tremendous research capability, and it is present 
in a high-vacuum and low-gravity environment of low-Earth 
orbit. A facility like this has never existed for use by 
researchers throughout time or throughout the world.
    ISS can enable technology development, understanding of the 
human system performance in microgravity, and enable both 
fundamental and applied research. ISS also offers a unique 
capability for commercial companies to test the advantages of 
microgravity research to their industry.
    Commercial companies can experiment at very low cost to 
determine if there is a competitive advantage for them over 
other companies that do not take advantage of space-based 
research. ISS could enable development of a new economy based 
on space-based research.
    Today, we are seeing a real increase in the research on 
ISS. As I discussed earlier, there are combustion experiments 
aimed at understanding the fundamentals of combustion. This may 
allow better and more efficient combuster designs. The Alpha 
Magnetic Spectrometer that was discussed earlier is looking for 
dark matter, and that may ultimately help us understand the 
very beginnings of the universe.
    There are fluids experiments. And as we sit here today and 
you mentioned, the HTV, the Japanese cargo vehicle, is 
approaching the Space Station for docking on Friday with a 
large number of research experiments.
    The Japanese cargo vehicle is carrying a system to deploy 
microsatellites from the Space Station. It is carrying a remote 
Earth observation camera system to monitor disaster areas on 
the Earth. It is carrying an aquatic habitat that will monitor 
the development of fish in microgravity. It is carrying a next 
generation of software-defined radios, where the radio can 
support multiple frequencies by just simply changing the 
software inside the radio.
    And last, it is carrying two Lenovo YouTube Spacelab 
student science experiments to the Space Station. These 
students came to Washington, and their experiments were 
selected to fly on the ISS by a team of judges that included 
Stephen Hawking.
    They did this activity through the Internet. They 
participated with many folks here, and the exciting thing was 
they got to meet with Sunita Williams, who is presently onboard 
the Space Station. So, Sunita, who they actually interfaced 
with and talked to, will now be performing their experiments 
onboard Space Station this fall.
    So it is amazing that these students were here in 
Washington in the spring. Their experiments are flying to 
station here this summer, and their experiments will be 
performed on Space Station in the fall. This is direct evidence 
that the Space Station team can provide research opportunities 
in a very timely manner for folks out in the research 
community.
    Again, this is an amazing time for space-based research. 
ISS is showing that it is an amazing research facility. ISS can 
inspire students and engineers to think differently, as Don 
talked about. And we will continue to make it easier for 
research to get to ISS and be performed there.
    We are showing that ISS is an amazing research capability 
for this nation and the world. We cannot predict what results 
will come from the ISS and long-duration space-based research, 
but we can and we are making this facility available to a 
talented research community.
    True advances come from discovery, and ISS is a platform 
for discovery. I look forward to your questions.
    [The prepared statement of Mr. Gerstenmaier follows:]

Prepared Statement of William H. Gerstenmaier, Associate Administrator, 
   Human Exploration and Operations, National Aeronautics and Space 
                             Administration
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear before you today to discuss how we are using and 
benefitting from the International Space Station (ISS). The ISS, 
created and maintained by an international partnership with Canada, 
Europe, Japan, and Russia, represents an unparalleled capability for 
human space-based research that cannot be pursued on Earth, as well as 
a platform for the development of exploration technologies. It provides 
a research and development (R&D) opportunity that allows us to 
investigate biological and physical processes in a very different 
environment than that obtainable on Earth. Observing from, and 
experimenting in, the environment of ISS gives us a chance to learn 
about our world and biological and physical processes from a very 
different frame of reference. We have been using the unique ``reference 
point'' of the ISS to advance Science, Technology, Engineering, and 
Mathematics (STEM) efforts as well.
    The ISS is also an international research facility. The three major 
science laboratories aboard the ISS--the U.S. Destiny, European 
Columbus, and Japanese Kibo facilities--as well as external testbeds 
and observatory sites, enable astronauts to conduct a wide variety of 
experiments in the unique, microgravity and ultra-vacuum environment of 
low Earth orbit (LEO). The ISS supports research across a diverse array 
of disciplines, including high-energy particle physics, Earth remote 
sensing and geophysics experiments, molecular and cellular 
biotechnology experiments, human physiology research (including bone 
and muscle research), radiation research, plant and cultivation 
experiments, combustion research, fluid research, materials science 
experiments, and biological investigations. It is also a place to 
conduct technology demonstrations and development efforts. R&D 
conducted aboard the ISS holds the promise of next-generation 
technologies, not only those directly related to NASA's exploration 
efforts, but also those with numerous terrestrial applications, as 
well. The ISS will provide these opportunities to scientists, 
engineers, and technologists through at least 2020.
    Beyond being a feat of unparalleled engineering and construction, 
as well as international collaboration, the ISS is a place to learn how 
to live and work in space over a long period of time and foster new 
markets for commercial products and services. The ISS will be critical 
to NASA's future missions of exploration beyond LEO, and the ISS offers 
many unique benefits to the citizens of the United States and the 
world.
    As stated in my testimony before this Committee last month, the 
success of our industry partners in providing commercial cargo and crew 
endeavors is critical to ensuring the effective utilization of the ISS. 
U.S. commercial cargo resupply capability will ensure the continued 
operation of the ISS and the full utilization of its formidable 
research facilities as a U.S. National Laboratory. American commercial 
crew transportation and rescue services will enable the United States 
to fly our astronauts to and from Station, end our sole reliance on 
foreign governments, and provide needed redundancy in the system. 
Partnering with the commercial space industry to provide access to LEO 
is enabling the Agency to increasingly focus on developing systems for 
sending astronauts on missions of exploration into deep space, while 
promoting the development of an economy in LEO.
    The ISS will continue to meet NASA's mission objective to prepare 
for the next steps in human space exploration. The ISS is NASA's only 
long-duration flight analog for future human deep space missions, and, 
as such, it provides an invaluable laboratory for research with direct 
application to the exploration requirements that address human risks 
associated with deep space missions. It is the only space-based 
multinational research and technology testbed available to identify and 
quantify risks to human health and performance, identify and validate 
potential risk mitigation techniques, and develop countermeasures for 
future human exploration.
Benefits to Humanity and Growth in ISS Utilization
    Almost as soon as the ISS was habitable, researchers began using it 
to study the impact of microgravity and other space effects. In the 
physical and biological sciences arena, the ISS is using microgravity 
conditions to understand the effect of the microgravity environment on 
microbial systems, fluid physics, combustion science and materials 
processing, as well as environmental control and fire safety 
technologies. The ISS also provides a test-bed for studying, 
developing, and testing new technologies for use in future exploration 
missions. Although each space station partner has distinct agency goals 
for station research, each partner collectively shares a unified goal 
to extend the resulting knowledge for the betterment of humanity. There 
are already demonstrated benefits in the areas of human health, 
telemedicine, education and Earth observations from space. Vaccine 
development research, station-generated images that assist with 
disaster relief and farming, and education programs that inspire future 
scientists, engineers and space explorers highlight just some of the 
many examples of research that can benefit humanity.
    ISS crews are conducting human medical research to develop 
knowledge in the areas of: clinical medicine, human physiology, 
cardiovascular research, bone and muscle health, neurovestibular 
medicine, diagnostic instruments and sensors, advanced ultrasound, 
exercise and pharmacological countermeasures, food and nutrition, 
immunology and infection, exercise systems, and human behavior and 
performance. Many investigations conducted aboard ISS will have direct 
application to terrestrial medicine. For example, the growing senior 
population may benefit from experiments in the areas of bone and muscle 
health, immunology, and from the development of advanced diagnostic 
systems.
    The transition from the ISS assembly and spares pre-positioning 
phase is now allowing NASA to focus directly on increasing the 
utilization of ISS laboratories, testbeds and observatory sites. 
Through the conclusion of ISS Expedition 28 in October 2011, 
approximately 1,250 research investigations were performed that 
involved 1,309 principal investigators (PIs) from 63 countries around 
the world. Of these, U.S. PIs under NASA sponsorship conducted 475 
investigations (38 percent of the total). Expeditions 29 to 32, which 
cover the period from October 2011-September 2012, included 259 total 
investigations. In other words, approximately 20 percent as many 
investigations were performed in these two post-assembly Expeditions as 
had been achieved in the prior 28 Expeditions combined. An impressive 
range of scientific research, technology demonstrations and educational 
outreach is underway.
    In the area of scientific research, recent highlights include:

  <bullet> The Monitor of All-sky X-ray Image (MAXI) instrument, a 
        highly sensitive X-ray slit camera externally-mounted for 
        monitoring more than 1,000 X-ray sources in space, including 
        black holes and neutron stars, made the first observation, 
        along with the Swift spacecraft, of a relativistic X-ray burst 
        from a super-massive black hole destroying a star and creating 
        a jet of X-rays. The research teams co-published their results 
        in Nature, 476: 421-424 August 2011.

  <bullet> The Alpha Magnetic Spectrometer (AMS) cosmic-ray particle 
        physics experiment was installed and began science operations 
        on May 19, 2011. AMS has recorded to date the passage of over 
        13 billion cosmic ray particle events originating from 
        elsewhere in our Milky Way galaxy. The U.S. Department-of-
        Energy-sponsored collaboration across North America, Europe, 
        and Asia is actively analyzing these cosmic-ray particle data 
        for potential new physics and astronomy discoveries. The AMS 
        Payload Operations Control Center is located at CERN, in 
        Switzerland, which conveniently allows coordination with the 
        ground-based Large Hadron Collider high-energy particle 
        accelerator research activity.

  <bullet> Flame tests conducted by Principal Investigator Marshall B. 
        Long, Ph.D. of Yale University in Connecticut during the 
        Structure and Liftoff In Combustion Experiment (SLICE) yielded 
        stable lifted flames that can be simpler to numerically model. 
        SLICE investigates the nature of flames under microgravity 
        conditions and the results could lead to improvements in 
        technologies that aim to reduce pollution emissions and improve 
        burning efficiency for a wide variety of industries.

  <bullet> Fluid physics experiments conducted by Portland State 
        University in Oregon have led to a greater understanding of 
        capillary flow phenomena and subsequent production of open-
        source code for modeling the behavior of fluids in space.

  <bullet> Research on self-ordering systems (published in Nature, 478: 
        225-228 October 13, 2011), demonstrates mechanisms relevant to 
        self-replication in primitive chemical environments. Colloidal 
        systems for studying the behavior of self-assembling materials 
        for photonic technologies are being used by Proctor and Gamble 
        to develop more stable, concentrated products.

  <bullet> Flight research conducted in the field of vaccine 
        development for bacterial pathogens, such as salmonella and 
        methicillin-resistant staphylococcus aureus (MRSA), has been 
        completed for the first target drug candidate. This work was 
        sponsored by a private firm, Astrogenetix, in cooperation with 
        a leading scientist from the Veterans Administration (VA). The 
        team is at the stage where additional funding is required to 
        conduct ground-based pre-clinical trials prior to submitting an 
        application for an investigational new drug (IND) with the Food 
        and Drug Administration. Both the firm and VA are pursuing 
        further funding to advance to the next stage.

  <bullet> Space Act Agreements were signed with the Arizona State 
        University Bio-Design Institute to conduct experiments 
        initially focusing on the development of vaccines.

    In the area of technology development and demonstration, recent 
highlights include:

  <bullet> The same technology that went into building the Canadarm2 
        and Dextre (the Canadian robots that assembled, service, and 
        maintain the ISS) was adapted to produce the world's first 
        robot capable of performing brain surgery--
        neuroArm<SUP>TM</SUP>--on a patient while the patient undergoes 
        magnetic resonance imaging. This technology has since been 
        licensed to a private, publicly-traded medical device 
        manufacturer who will produce a two-armed version that allows 
        surgeons to see three-dimensional images, ``feel'' tissue, and 
        apply pressure during neurosurgical operations.

  <bullet> The Robotic Refueling Mission (RRM) began operations March 
        7-9, 2012, and continued operations from June 19-22, 2012, 
        marking an important milestone in satellite-servicing 
        technology. RRM is designed to demonstrate technologies, tools, 
        and techniques needed to robotically service and refuel 
        satellites in orbit that were not designed for on-orbit 
        servicing. During the gas fittings removal task, robot tele-
        operators at Johnson Space Center directed Dextre to retrieve 
        tools and go through the tasks required to cut safety wires and 
        remove representative fittings located on the RRM module on 
        board ISS. These fittings are used on many spacecraft for 
        filling fluids and gases prior to launch. Future RRM operations 
        will demonstrate robotic satellite refueling, including opening 
        fill valves, transferring fluid, and other servicing tasks.

  <bullet> Robonaut 2 (R2) was launched to ISS on February 24, 2011. 
        This dexterous humanoid robot was developed in partnership with 
        General Motors. It is designed to duplicate the manipulation 
        capabilities of a human so that it can handle tools and assist 
        astronauts in performing tasks in space, or help workers build 
        cars on the assembly line. Like Dextre, R2 will be tele-
        operated from the ground, and it will test a different way to 
        grip and manipulate objects with its human-like, five-digit 
        hands.

  <bullet> The Multi-User System for Earth Sensing (MUSES) platform 
        started development to provide a commercially managed platform 
        for Earth observation instruments. The platform provides high 
        accuracy pointing capabilities. It can hold up to four separate 
        instruments at once including visible, near infrared, and 
        hyperspectral instruments. Instruments can be changed out 
        robotically as new technologies and new instruments are 
        developed.

    In the area of educational outreach, recent highlights include:

  <bullet> Literally thousands of two-minute video submissions were 
        received in areas of physics or biology from more than 80 
        countries for the first YouTube Space Lab global contest 
        sponsored by YouTube, Lenovo Computers, and Space Adventures, 
        Inc. in cooperation with NASA, the European Space Agency, and 
        the Japan Aerospace Exploration Agency . This educational 
        project challenges 14-18-year-olds to design a science 
        experiment that can be performed in space. The top two 
        experiments will be conducted on ISS.

  <bullet> The Program also conducts experiments that involve student 
        participation. One example is the Synchronized Position Hold, 
        Engage, Reorient, Experimental Satellites (SPHERES) facility. 
        SPHERES are three bowling-ball sized spherical satellites that 
        are used inside the Station to test telerobotics operations in 
        addition to spacecraft formation flight, autonomous rendezvous 
        and docking maneuvers. NASA, along with the Defense Advanced 
        Research Projects Agency with implementation by the 
        Massachusetts Institute of Technology, have co-sponsored three 
        ``Zero Robotics SPHERES Challenge'' competitions for high 
        school and middle school students from the U.S. and abroad. The 
        competitions challenge students to write software code, which 
        is uploaded to the robots on ISS, and the SPHERES satellites 
        then execute the instructions, such as formation flight and 
        close proximity operations. Student finalists were able to 
        watch their flight program live on NASA-TV.

  <bullet> Astronauts aboard ISS participate in educational downlinks 
        with schools, and engage in communicating with people around 
        the world using ``ham'' radio.
A National Laboratory in Orbit
    In the NASA Authorization Act of 2005 (P.L. 109-155), Congress 
designated the U.S. segment of the ISS as a National Laboratory, and 
directed the Agency to seek to increase the utilization of the ISS by 
other Federal entities and the private sector. NASA has made solid 
strides in its effort to engage other organizations in the ISS program. 
Subsequently, in the NASA Authorization Act of 2010 (P.L. 111-267), 
Congress directed that the Agency enter into a cooperative agreement 
with a not-for-profit organization to manage the activities of the ISS 
National Laboratory. To this end, NASA issued a cooperative agreement 
notice on February 14, 2011, and on August 31, 2011, the Agency 
finalized a cooperative agreement with the Center for the Advancement 
of Science in Space (CASIS) to manage the portion of the ISS that 
operates as a U.S. National Laboratory. The CASIS organization is 
located in the Space Life Sciences Laboratory at Kennedy Space Center 
in Florida. The independent, nonprofit research management organization 
will help ensure the Station's unique capabilities are available to the 
broadest possible cross-section of U.S. scientific, technological, and 
industrial communities.
    CASIS will develop and manage a varied R&D portfolio based on U.S. 
national needs for basic and applied research; establish a marketplace 
to facilitate matching research pathways with qualified funding 
sources; and stimulate interest in using the national lab for research 
and technology demonstrations and as a platform for science, 
technology, engineering and mathematics education. The goal is to 
support, promote and accelerate innovations and new discoveries in 
science, engineering, and technology that will improve life on Earth.
    The transition of the National Laboratory management function to 
CASIS is progressing. Earlier this year, NASA, with the help of the 
Office of Science and Technology Policy, put out a request for 
candidates for the permanent board that will guide CASIS' efforts in 
this groundbreaking enterprise. NASA is working with CASIS' interim 
Board of Directors to identify and evaluate a diverse group of 
outstanding individuals for that board, and the Agency is also in the 
process of transitioning existing National Laboratory agreement holders 
to CASIS.
    To help facilitate U.S. National Laboratory opportunities aboard 
Station, on June 26, 2012, CASIS launched its first solicitation for 
proposals. Through this solicitation, CASIS aims to enable next-
generation research in the area of protein crystallization and life 
science breakthroughs. The current request for proposals calls for 
crystallography investigations--studies using three-dimensional 
structures of protein molecules.
    NASA's National Laboratory partners can use the unique microgravity 
environment of space and the advanced research facilities aboard 
Station to enable investigations that may give them the edge in the 
global competition to develop valuable, high technology products and 
services. Furthermore, the demand for access to the ISS will support 
the providers of commercial crew and cargo systems. Both of these 
aspects of the U.S. segment of ISS as a National Laboratory will help 
establish and demonstrate the market for research in LEO beyond the 
requirements of NASA.
International Partnership Progress
    The ISS Multilateral Coordination Board (MCB) and Heads-of-Agency 
(HOA) met in Quebec City, Canada, February 28 and March 1, 2012, to 
discuss future plans for the ISS, progress on utilization, and 
potential contributions to future human exploration missions. The 
International Partners reported progress on identifying potential 
technology demonstrations that could be conducted on the ISS. These 
demonstrations correlate closely with the recent report issued by the 
National Research Council, Aeronautics and Space Engineering Board on 
NASA Space Technologies and Priorities.
    In addition, the MCB and HOA released two documents related to ISS 
utilization:

  <bullet> ``ISS Utilization Statistics,'' Fall 2011 (inaugural issue), 
        which documents the number and thematic areas of research being 
        conducted by each partner.

  <bullet> ``ISS Benefits for Humanity,'' which launches a new 
        international web portal describing achievements of the ISS 
        partnership in the areas of human health, Earth observation and 
        disaster response, and education.

    Copies of both documents are available at: http://www.nasa.gov/
mission_pages/station/research/index.html
Conclusion
    We have many challenges and opportunities ahead as we continue to 
sustain and productively utilize the ISS. These include training the 
next generation of scientists, engineers, and technologists for greater 
challenges as human presence is extended further into the solar system. 
This mission pull drives us to develop innovative solutions that 
benefit humans on the Earth today. We have two extraordinary assets 
that have never before existed in the history of human space 
exploration--an experienced international partnership encompassing 
Canada, Europe, Japan, Russia, and the U.S., and a permanently crewed, 
full-service space station in low-Earth orbit. Our ability to continue 
working together as a global team, while making the best applied use of 
our assets, will pace the future progress of space exploration and 
expansion of benefits on Earth.
    Great nations explore in order to advance. Throughout history, 
nations have progressed and benefited from exploration. Exploration 
drives technological breakthroughs and scientific discoveries that 
benefit society; without exploration, the cycle of innovation and 
advancement is broken. This innovation is well documented in the U.S. 
patent record. In the past 30 years, the U.S. Patent and Trademark 
Office has granted over 818 microgravity-related patents, and in the 
past decade over 587 further applications have been filed. The same 
holds true for Space Station, where 1,722 patents have been granted and 
1,107 applications are pending, and for the Space Shuttle, where 2,384 
patents have been granted and 1,285 applications remain pending. These 
7,903 patent actions are historic evidence of the promise for the 
future.
    The ISS has now entered its intensive research phase, and this 
phase will continue through at least 2020. Station will continue to 
meet NASA's mission objective to prepare for the next steps in human 
space exploration--steps which will take astronauts beyond LEO to 
destinations such as near-Earth asteroids, and eventually, Mars. The 
ISS is NASA's only long-duration flight analog for future human deep 
space missions, and it provides an invaluable laboratory for research 
with direct application to the exploration requirements that address 
human risks associated with deep space missions. It is the only space-
based multinational research and technology test-bed available to 
identify and quantify risks to human health and performance, identify 
and validate potential risk mitigation techniques, and develop 
countermeasures for future human exploration.
    The ISS Partnership has transformed exploration from an effort for 
the advancement of individual nations, to an endeavor committed to the 
advancement of humankind. Closer to home, NASA's National Laboratory 
partners can use the unique microgravity environment of space and the 
advanced research facilities aboard Station to enable investigations 
that may give them the edge in the global competition to develop 
valuable, high technology products and services. Furthermore, the 
demand for access to the ISS will support the providers of commercial 
crew and cargo systems. Both of these aspects of the U.S. segment of 
ISS as a National Laboratory will help establish and demonstrate the 
market for research in LEO beyond the requirements of NASA.
    NASA appreciates this Committee's ongoing support of the ISS as we 
work together to support this amazing facility that yields remarkable 
results and benefits for the world.
    Mr. Chairman, I would be happy to respond to any question you or 
the other Members of the Committee may have.

    Senator Nelson. Thank you, Mr. Gerstenmaier.
    Mr. Reiter?

  STATEMENT OF THOMAS REITER, DIRECTOR, HUMAN SPACEFLIGHT AND 
               OPERATIONS, EUROPEAN SPACE AGENCY

    Mr. Reiter. Dear Mr. Chairman, dear members of the 
Committee----
    Senator Nelson. Don't worry about those bells.
    Mr. Reiter. OK.
    Senator Nelson. That is what is going on over on the floor 
of the Senate.
    Mr. Reiter. All right. It is also great opportunity and 
honor for me to testify before you today and present the 
European Space Agency's role and capabilities on ISS.
    The successful utilization of ISS is of highest priority 
for the European Space Agency and for the European ISS 
partners. ISS is a unique platform for scientific research and 
technology development.
    It is in full recognition of the extraordinary utilization 
opportunities of the ISS that Europe decided to engage as a 
full and very active partner in this unparalleled international 
cooperation together with the United States, with Russia, with 
Japan, and Canada. Europe, working through the European Space 
Agency, developed and operates two key elements: the Columbus 
laboratory, which you see here in the front side on the left, 
and the Automated Transfer Vehicle.
    Columbus is a multi-function laboratory, which is shared 
with NASA and the other partners, and it is equipped with 10 
interchangeable payload racks containing an advanced number of 
research instruments.
    The second key element, the ATV, Automated Transfer 
Vehicle, which is able to deliver more than 7 metric tons of 
cargo to the ISS. One of these vehicles is currently docked to 
the International Space Station until mid of September, and two 
more of these vehicles about to come next year and in 2014.
    Apart from cargo delivery, ATV is providing fuel for 
maintaining attitude control and giving boost to the station 
and also gas, water, and other supply articles.
    Apart from Columbus and the ATV, Europe has also 
contributed to other elements, equipment, and design skills. 
For example, the DMS-R, the data management system, which has 
been a key part in the station's ``brain,'' so to say. Two of 
three nodes that link station components, a dome-like structure 
with panoramic windows called the cupola, allowing astronauts 
to operate the station Robotic Manipulator System and other 
equipment.
    And inside U.S. Destiny research module, various laboratory 
equipment like the material science rack and freezer units.
    Europe also provides members of the ISS crew. Since 2001, 
18 European astronauts have lived and worked onboard ISS. And 
one of my colleagues from Europe, Dutch astronaut Andre 
Kuipers, just returned a few days ago, together with Don 
Pettit, from a half year work onboard the station.
    Europe's participation in the ISS program means that 
throughout ESA's member states, thousands of Europe's 
scientists and engineers at hundreds of universities and high-
technology companies are working on the frontier of 21st 
century science and engineering. ESA has implemented a broad 
portfolio of research activities, covering fundamental science, 
applied research, as well as human exploration preparation and 
technology development.
    To date, ESA has performed more than 200 experiments 
onboard ISS. And since the deployment of the Columbus 
laboratory in February 2008, increasingly long duration 
experiments--at an average of 30 to 40 per year--have also been 
implemented.
    Examples have already been given in the areas of human 
physiology and fundamental physics. Let me just give one 
additional example from the area of material sciences, which we 
have just concluded a project investigating processes for the 
development of new lightweight alloys. And these new 
lightweight alloys are now used for turbine blades in aircraft 
engines in an industry valued some 2 billion Euros over the 
next coming years.
    Many of the fundamental and applied research projects 
conducted within the European Program for Life and Physical 
Sciences, called ELIPS, are creating a growing knowledge basis 
to improve production processes and to create new products, 
such as medical equipment, casting technologies, and other 
miniaturized sensors and devices.
    Of course, the ISS also offers outstanding opportunities as 
test bed for Human Exploration preparation beyond low-Earth 
orbit. Apart from already ongoing or planned scientific and 
technological investigations, ESA supports challenging new 
ideas to pave the way for human exploration beyond low-Earth 
orbit. The joint implementation of these activities by the 
whole ISS partnership will allow rapid progress for the 
preparation of future human exploration missions.
    The European Program for Life and Physical Sciences in 
Space involves some 1,500 scientists in almost 150 projects 
included in the research pool of ISS experiments.
    Now besides the significance of the ISS for science, 
applications, and technology, its utilization opportunities and 
the astronauts working on the station are a strong inspiration 
for the young generations to consider a science, technology, 
engineering, and mathematics education. In this context, ESA 
carries out education activities on the ISS in close 
collaboration with our partners.
    The continuous efforts of the ISS partners for the global 
promotion of the ISS accomplishments with dedicated 
publications of the ISS Program Science Forum and public events 
like the recent ISS Symposium, which took place in Berlin, 
highlight the value of the International Space Station and the 
strength of its international partnership in the public.
    Now, in conclusion, the successful and optimal utilization 
of the ISS is important to the European Space Agency in order 
to demonstrate to its member states the return of investment. 
ESA has already reaped considerable benefits from the 
scientific research, applications, technology demonstrations, 
and education activities performed on the International Space 
Station, and more are expected to be realized in the 
continuation of ISS utilization in the years to come.
    I would, therefore, like to underline an extremely 
important dimension of this international partnership in the 
ISS program: the excellent and highly valued cooperation 
between ESA and NASA. Forging such an international partnership 
and working together as partners is often referred to as one of 
the biggest achievements of the ISS program.
    It is the international partnership that brought the ISS 
and its unique utilization opportunities into existence, and we 
will also need an international partnership, probably even a 
wider one than the one for ISS, when aiming at the next steps 
for human exploration.
    Sorry for extending a little bit the 5 minutes. Thank you 
very much, and I am ready to answer your questions.
    [The prepared statement of Mr. Reiter follows:]

 Prepared Statement of Thomas Reiter, Director, Human Spaceflight and 
                   Operations, European Space Agency
    Mr. Chairman and Members of the Committee, thank you for the honour 
and the opportunity to testify before you today and present the 
European Space Agency's role and capabilities on ISS, in particular 
with respect to its utilisation for scientific research, applications, 
technology development and education purposes. The successful 
utilisation of the ISS is of highest priority for the European Space 
Agency and for the European ISS partners.
The European Space Agency's Role and Capabilities on ISS
    The International Space Station (ISS) is a unique scientific and 
technology platform in space, which continuously allows researchers 
from all over the world to put their talents to work on innovative 
experiments that could not be done here on Earth. Weightlessness, as 
well as other properties of the space environment, are influencing a 
huge variety of physical, chemical and biological processes. Low-Earth 
orbit is therefore an ideal environment for research in a wide spectrum 
of disciplines, as well as an excellent area for preparing future human 
exploration of space. The domains for utilisation are many and diverse: 
from fundamental physics to human physiology, from new alloys to growth 
processes in plants, from astrophysics to demonstration of space 
technologies and services. It is in full recognition of the 
extraordinary utilisation opportunities of the ISS that Europe decided 
to engage as a full and very active partner in this unique and 
unparalleled international cooperation undertaking together with the 
United States, Russia, Japan and Canada.
    Europe, working through ESA, developed and operates two key 
elements of the Station: the European Columbus laboratory and the 
Automated Transfer Vehicle (ATV).
    The European Columbus laboratory is one of the key ISS research 
capabilities, which ESA shares with NASA. Equipped with 10 
interchangeable payload racks, Columbus is a multi-function laboratory 
with an advanced suite of research instruments, namely for fluid 
physics, materials science and biology and especially for human 
research. On its four external platforms with different orientations it 
also provides unique external exposure and observation accommodation 
capabilities for unpressurized payloads.
    Europe's second biggest contribution is the Automated Transfer 
Vehicle (ATV), a vast versatile cargo supply vessel lifted into orbit 
by the Ariane-5 launcher with full autonomous rendezvous and docking 
capabilities to ISS. The ATV carries up to 7 tonnes of cargo including 
provisions, scientific payloads and rocket propellant. Once docked, the 
craft can use its engines to boost the Station higher in its orbit, 
counteracting the drag from the Earth's atmosphere. After the first 
ATV, Jules Verne in 2008, Johannes Kepler was flown in 2011 and the 
third one, Edoardo Amaldi was launched to the ISS on 23 March 2012 and 
will still remain docked until the end of September. The fourth and 
fifth ATV's are already in preparation for launch in 2013 and 2014.
    Apart from Columbus and the ATV, Europe's scientists and engineers 
are also contributing other elements, equipment and design skills 
across many elements of the ISS.
    Among these elements, the DMS-R data management system, which has 
been a key part of the Station's 'brain' since its July 2000 launch 
aboard the Russian Zvezda Service Module.
    Europe built also two of the three nodes that link Station 
components, as well as the Cupola--a dome-like structure that is the 
crew's panoramic window on space and a control room for astronauts 
operating the Station Robotic Manipulator Systems and other equipment.
    In fact, European technology plays an important part in many 
Station sections. Inside the United States Destiny research module, for 
instance, Europe has mounted, among other equipment, a specialized 
material science rack and freezer units. The Japanese Experiment Module 
also hosts one of the three MELFI freezers, which ESA has developed for 
NASA, as the cold stowage sample preservation reservoir on ISS, which 
is jointly used by the whole ISS partnership in conjunction with NASA's 
smart cold transportation assets.
    Europe also provides members of the ISS-crew. European astronauts 
have flown in space since 1983, and since 1998 the European Astronaut 
Centre in Cologne has concentrated on training men and women for future 
ISS missions. The first European to serve a tour of duty on the ISS, 
went on mission to the ISS in April 2001 on the Space Shuttle. Since 
then 18European astronauts have lived and worked on board the ISS as 
team members of fully integrated ISS crews.
    The astronauts on the ISS will always be part of a much larger 
scientific team on Earth which is closely following the crew activities 
on ISS. The European user community is very active and therefore the 
corresponding ISS utilisation demand is very high. The current European 
research plan of selected flight experiments already lasts until 2017 
and the next Announcements of Opportunity will be solicited in due 
time.
    In fact the European mission control centres--the Columbus Control 
Centre (COL-CC) in Oberpfaffenhofen, Germany and the ATV Control Centre 
(ATV-CC) in Toulouse, France--direct onboard experiments and the 
European ATV missions, sharing Station command with the United States 
and Russia.
    Nine European User Support and Operation Centres (USOCs) are based 
in national centres distributed throughout Europe. These centres are 
responsible for the use and implementation of European payloads on 
board the ISS and support the user community on the ground. The USOC 
activities also extend to investigations, which are done with European 
research equipment in ISS modules beyond Columbus.
    Right now, Europe's participation in the ISS means that throughout 
ESA's Member States, thousands of Europe's best scientists and 
engineers at hundreds of universities and high-technology companies are 
working on the leading edge of 21st-Century science and engineering. 
And the European ISS team is fully embedded in the international ISS 
partnership, which allows to exploit many synergies and invaluable 
experiences.
Scientific and Technological Objectives and Accomplishments to Date
    ESA--through its research programmes on board the ISS--has 
implemented a broad portfolio of research activities, in fundamental 
science, applied research as well as human exploration preparation and 
technology, addressing the following key research areas:

  <bullet> Fundamental Physics

  <bullet> Atmospheric and Environmental Research

  <bullet> Materials Sciences

  <bullet> Physics of Fluids and Combustion

  <bullet> Astrobiology

  <bullet> Cell, Developmental and Plant Biology

  <bullet> Human Physiology and Performance

  <bullet> Astrophysics

  <bullet> Technology Testing

    More than 200 experiments have been performed so far by ESA on 
board the ISS: short duration experiments before the assembly of the 
Columbus laboratory to the ISS, making use of Soyuz ``Taxi-flights'' 
under agreements with Russia, and since 2006 with NASA in the Destiny 
lab in the frame of the so-called ``Early Utilisation Agreement'' and 
also making use of Russian resources. Since the deployment of the 
Columbus laboratory in February 2008 increasingly long duration 
experiments--at an average of 30 to 40 per year--have also been 
implemented.
    A very good example of the tangible benefits of the research on 
board ISS is the already successfully concluded IMPRESS project, a 
material sciences research project the results of which were actually 
instrumental to develop new light-weight alloys; these new light-weight 
alloys are now used for aircraft engines turbine blades, in an industry 
valued some 2 Billion Euro over the next 10 years. The space part of 
this research project has been performed with furnaces and 
electromagnetic levitation facilities on parabolic flights and short-
duration Sounding Rocket missions. Now ESA's Material Science 
Laboratory (MSL), which is operated with NASA in the Destiny module 
under a bilateral cooperation agreement in the Materials Science 
Research Rack (MSRR-1), and soon also the unique Electro Magnetic 
Levitator (EML) in Columbus offer such capabilities for institutional 
and industrial users on board the Station. This will allow the optimum 
directional solidification of alloys in MSL and complementary 
container-less high-precision measurement of thermo-physical properties 
on a large variety of alloys which is essential for advanced casting 
processes and materials features.
    Also the joint operation of the European developed ISS facilities 
Microgravity Science Glovebox (MSG), European Modular Cultivation 
System (EMCS), Pulmonary Function System (PFS) for a large suite of 
investigations with fluids, biology, human research and again the MELFI 
freezers for samples preservation are invaluable assets on ISS space 
for advanced experimentation by our increasingly demanding user 
communities.
    Furthermore, many of the fundamental and applied research projects 
conducted within the European programme for Life and Physical Sciences 
in Space (ELIPS) create the growing knowledge basis for new products 
and improved processes, such as medical equipment, casting 
technologies, miniaturised sensors and devices.
    In future an ensemble of high-precision atomic clocks (ACES) on ISS 
will demonstrate, in combination with the world best ground reference 
clocks, advancements in frequency and time measurements for navigation, 
improving navigational accuracy.
    The ISS offers outstanding opportunities as test-bed for Human 
Exploration preparation beyond LEO. Apart from already on-going or 
planned scientific and technological investigations, ESA also fully 
supports the challenging ideas, which are under detailed elaboration by 
the International Expert Working Group (IEWG) teams under the 
leadership of NASA. The joint implementation of these activities by the 
whole ISS partnership will allow rapid progress and outstanding 
accomplishments on ISS for the preparation of future Human Exploration 
missions beyond LEO.
    The European programme for Life and Physical Sciences in Space, 
ELIPS, involves some 1500 scientists in almost 150 projects included in 
the research pool of ISS experiments. ELIPS includes a large and 
diverse group of industrial users interested in application-oriented 
research and industrial R&D; industrial R&D is often implemented in 
combination with the objectives and expertise of institutional 
researchers from academia. Hence, the continued utilisation of ISS and 
Low-Earth Orbit creates economic opportunities that stimulates both the 
academic and industrial sector and is providing for a variety of socio-
economic benefits on Earth. ESA is making every effort, in full 
coordination with ISS international partners and through dedicated 
Announcements of Opportunities, to attract the best ISS utilisation 
proposals, including those from international research teams beyond the 
borders of Europe. Corresponding to the diversified user needs, ESA is 
following an approach that enables utilisation opportunities across the 
entire spectrum of utilisation fields.
    Besides the significance of the ISS for science, applications and 
technology demonstrations, the ISS, its utilisation opportunities and 
the astronauts working on the Station are a strong inspiration for the 
young generations to consider a Science, Technology, Engineering and 
Mathematics (STEM) education. In this context, ESA carries out 
education activities on the ISS in close collaboration with NASA.
    The continuous efforts of NASA for the global promotion of the ISS 
accomplishments with dedicated publications of the ISS Programme 
Science Forum and public events like the recent ISS Symposium in Berlin 
highlight the value of the International Space Station and the strength 
of its international partnership to the public.
Optimisation of ISS Utilisation and Potential Improvements
    In order to optimize the science yield of ISS, the establishment of 
an internationally coordinated ISS research plan and joint science 
opportunities' solicitations are sought. The optimisation of the ISS 
utilisation can be accomplished making use of the well-established 
international working groups in life and physical sciences (ISLSWG and 
IMSPG) and pooling research objectives and flight resources. ESA has 
currently identified more than 20 joint ISS experiments with NASA and 
in total more than 50 with all the ISS partners. The shared use of 
unique on-orbit research infrastructure is of high importance to allow 
optimum and efficient experimentation on ISS according to terrestrial 
laboratories standards, despite the additional spaceflight challenges. 
In general most of the ISS research originates from earthbound 
problems. Hence a very solid anticipated terrestrial research programme 
is instrumental for defining and reaching challenging utilisation 
objectives on ISS, which are also of major impact in terms of Earth 
benefits. This close link even applies to a lot of the research and 
technology objectives for Human Exploration preparation on ISS. A 
thorough preparation of ISS experiments on ground or short-duration 
precursor flight opportunities (drop towers, parabolic flights, 
sounding rockets) is of great scientific and technical importance.
Conclusions
    The successful and optimal utilisation of the ISS is important to 
ESA; ESA has already reaped considerable benefits from the scientific 
research, applications, technology demonstrations and education 
activities performed on the International Space Station, and more are 
expected to be realised in the continuation of the ISS utilisation in 
the years to come.
    To conclude, I would like to take this opportunity to underline a 
highly visible-and highly important dimension of the international 
partnership in the ISS programme: the excellent and highly valued 
cooperation between ESA-NASA. The forging of such an international 
partnership and getting experience in working together as partners is 
often referred to as one of the biggest achievements of the ISS 
programme. It is the international partnership that brought the ISS and 
its unique utilisation opportunities into existence and fruition. We 
will also need an international partnership, probably even a wider one 
than for the ISS, when aiming at the next steps of human space 
exploration.
    Mr. Chairman, I would be happy to respond to any question you or 
the other Members of the Committee may have.
    Thank you.

    Senator Nelson. This is the first time that we have had a 
representative of the European Space Agency in a decade testify 
in front of this committee. So, Mr. Reiter, we appreciate that 
very much.
    How many days were you in space?
    Mr. Reiter. In total, 350. I flew to the Russian Space 
Station MIR in 1995 for 179 days, and the ISS in 2006 for 171 
days. So 350.
    Senator Nelson. Very good.
    Mr. Royston, tell us about CASIS at the Kennedy Space 
Center, how you are preparing the experiments to go to the 
station.

       STATEMENT OF JAMES D. ROYSTON, INTERIM EXECUTIVE 
    DIRECTOR, CENTER FOR THE ADVANCEMENT OF SCIENCE IN SPACE

    Mr. Royston. All right. First, I would like to thank the 
Committee for the opportunity to speak here today. It is a real 
honor to sit here on this panel and in this room with those 
that envisioned, built, and recently spent time on the 
International Space Station.
    To our elected officials, I want to thank you for your 
leadership, support, and ongoing commitment to this great 
national asset. I would especially like to thank Senator 
Hutchison for your outstanding service and commitment not only 
to the ISS, but also to manned space flight. Your leadership 
and dedication is why we are here today, and you will 
definitely be missed.
    I would also like to thank Senator Nelson from my home 
State of Florida for all your past, present, and future 
leadership in space. And I must acknowledge the junior Senator 
also from my great state of Florida, Senator Rubio.
    As you are aware, CASIS was formed in response to the 
direction provided by this committee regarding independent 
management of the National Lab. The CASIS mission has one 
overarching goal, and that is to maximize the use of the 
National Lab. And by doing so, we need to give our taxpayers 
the return on investment they deserve.
    This is a challenging task. To achieve this goal, CASIS 
must stimulate and open new markets and introduce new users to 
this unparalleled asset. We must help all Americans understand 
why we go there and how it benefits them, and we must fully 
utilize what I believe is the best teaching tool ever created 
to inspire our next generation of scientists, mathematicians, 
and engineers.
    In our short existence, CASIS has made great strides in 
spreading the word about the potential of the National Lab 
while building a solid foundation that will guarantee the 
future success of this organization. In line with the original 
vision in our proposal, our staff has worked urgently to 
partner with industry, academia, and others to ensure that 
CASIS can be responsive to the needs of potential users and to 
maximize utilization.
    Our world-class panel of scientists has identified initial 
avenues of promising research after poring over more than 135 
projects flown in space to date. We have conducted extensive 
outreach activities, meeting with over 160 companies and 
organizations from coast to coast to convince them of the 
benefits of doing research and developing products in space.
    This ongoing effort also provides us with valuable 
information on how industry views space and the barriers to 
doing business on the National Lab. We have issued our first 
funded solicitation for research, with many more to follow. We 
have taken steps to enhance the capabilities of the National 
Lab from an external research platform to new software 
enhancements. We have assembled an expanding list of hardware 
and integration experts to assist researchers in getting their 
projects to space.
    We have worked with NASA to increase the efficiencies and 
speed by which we can get projects from just an idea into 
orbit. We have become an enabler of the new commercial space 
flight industry, and we will build their backlog that will 
drive the flight rates.
    We have enticed new players from nontraditional markets to 
develop their consumer goods on the National Lab. We have 
attracted more than 30 unsolicited project proposals, which are 
currently going through our evaluation process. We are working 
with Fortune 100 companies and brand-new startups that see 
space as truly a new, emerging market.
    We have created product endorsements capable of bringing 
the awareness and the wonder of the ISS into people's living 
rooms. And we have established an education program that soon 
will be capable of reaching hundreds of thousands of school 
children in a very short period of time.
    Most importantly, we have met our key milestones that were 
laid out for us in our performance plan. And as we transition 
from our standup phase to our operational phase, I am excited 
to tell you that the permanent Board of Directors, including 
some of America's brightest minds from business and science 
will soon be announced.
    I firmly believe that this Board, along with our new 
Executive Director, will exceed the expectations envisioned by 
this committee and also by others.
    In closing, I believe this is our defining moment. The 
outpost is in place. The railroads have been built. History 
will look back at this moment as a time when industry and 
government came together as true pioneers, and companies 
invested their own money to ferry cargo and humans back and 
forth from this great outpost.
    It is our moment, and working together, we can open this 
new frontier to all Americans for the benefit of all humankind.
    Thank you. And I look forward to your questions.
    [The prepared statement of Mr. Royston follows:]

  Prepared Statement of James D. Royston, Interim Executive Director, 
             Center for the Advancement of Science in Space
Introduction
    Good morning. It's a privilege to be here before you this morning 
and I want to thank the Committee for this opportunity to update the 
American people about the performance and accomplishments of the Center 
for the Advancement of Science in Space, better known as CASIS, and its 
role as the manager of the International Space Station National 
Laboratory (ISS NL).
    The entire CASIS organization is working diligently to establish 
procedures for outreach, business development, operations, education 
and fundraising that will ensure we successfully enable companies, 
academic researchers, students and Federal agencies to conduct research 
and development on board Station. These efforts will produce 
breakthroughs in science, technology, materials and pharmaceutical 
drugs which will provide American taxpayers with a positive return on 
their investment while benefitting all humanity.
    Because of its unique mission and mandate, CASIS has greater 
flexibility and can conduct activities far different than NASA. As 
Congress intended, CASIS' status as an independent and non-profit 
organization allows for the development of partnerships, funding 
sources, endorsements, and other opportunities that NASA cannot pursue. 
CASIS can raise money, advertise, and innovate in ways that open new 
opportunities for ISS utilization.
    The CASIS staff shares the Committee's sense of urgency with 
regards to maximizing use of the ISS NL. In the following testimony, I 
will discuss how CASIS is developing and pursuing innovative, forward-
leaning, and broad strategies to attract a wide-range of users to ISS 
NL.
Foundation and Organizational Structure
    During its standup phase, CASIS has developed an organizational 
structure faithful to our proposal, Cooperative Agreement with NASA, 
and original Reference Model, but one which is also responsive to the 
practicalities of implementation and the realities of the marketplace.
    We currently have 27 full-time employees. Staff members bring with 
them an array of skills and extensive experience with NASA and the 
aerospace industry, R&D, venture capital, media, commercialization, 
management, and operations. Our staff has worked with urgency to 
establish CASIS' essential functions: business development, marketing, 
education, and operations. We have worked and partnered with industry, 
academia and others to ensure that the CASIS organization can be 
responsive to the needs of potential users of the ISS NL. We have 
conducted extensive outreach activities. All work undertaken thus far 
has been in an effort to move the organization forward in an efficient, 
timely and practical manner in step with efforts to establish a 
permanent Board of Directors and executive leadership. We are confident 
that the steps taken so far to identify initial research pathways while 
raising awareness and developing partnerships satisfy our mandate and 
will be approved by a permanent Board of Directors.
    The Board of Directors selection process began several months ago 
when the Interim Board contracted with a well-respected executive 
search firm, Korn/Ferry International, to conduct an independent, 
verifiable search for qualified candidates. Stakeholders, including the 
leadership of this Committee and its House counterpart, NASA, and other 
science-focused Federal agencies, had the opportunity to submit names 
of Board candidates. Through a series of evaluations, interviews, and 
down-selects, the Interim Board has identified the first group of 
permanent Board of Directors candidates, all of whom represent the best 
American minds in the fields of scientific research and management from 
academia, government, and industry. An announcement of the first set of 
Board members will be made shortly, with the remaining 15-member Board 
finalized soon thereafter. As envisioned by Congress and the ISS NL 
Reference Model, the permanent Board will be made up of world-class 
scientists and leaders who will provide CASIS with guidance, expertise, 
and credibility. They will serve as ambassadors for CASIS and the ISS 
NL, reaching new users and supporters through their various networks. 
Additionally, the initial permanent Board members will appoint the 
permanent Executive Director.
    While awaiting the appointment of a permanent board, CASIS has 
taken steps to establish a path toward effective utilization in line 
with Congressional intent, our Cooperative Agreement with NASA, and 
other guiding documents. This includes the appointment early this year 
of a world-class Interim Chief Scientist and an Interim Science 
Collegium comprised of renowned experts to review past life sciences 
research conducted in space in order to identify initial research 
pathways. Their effort resulted in our first solicitation for research 
in the area of protein crystallization. This is a well-established area 
of interest for researchers, but in need of a more systematic approach 
than has been taken in the past. The validity of the collegium's 
approach is supported by a recent National Academy of Sciences' study 
highlighting the importance of studying crystal growth without 
gravitational bias. Protein crystallization in microgravity can 
validate its scientific worth and unlock the potential for countless 
discoveries.
State of Valuation and Prioritization Process
    CASIS' valuation model has been developed in order to best respond 
to the specific needs of the ISS NL as well as to meet the requirements 
of our charter. Designed to be a transparent process, it incorporates 
standard business model elements with regards to project evaluation and 
prioritization and has evolved into a robust methodology, taking into 
account scientific merit, economic value, readiness, and operational 
feasibility.
    An interim process was used on multiple test cases, starting with 
an operational review to gauge the feasibility of proposals. The 
Interim Chief Scientist and his team reviewed projects for scientific 
merit and impact. The Chief Economist and his team then assessed 
projects for value and potential return to the U.S. taxpayer. Our 
compliance team scrutinized the legal implications and challenges. 
Final decisions were made by the Interim Executive Director with 
Interim Board approval.
    Once a permanent Board of Directors is in place and selects a 
permanent Executive Director, the final CASIS Evaluation and 
Prioritization Framework will be used on solicited and unsolicited 
proposals. Under the final methodology, the interim process expands to 
include the evaluation of projects by the scientific collegium and 
outside industry experts who will score and help prioritize projects 
using a standardized set of metrics for the scientific and economic 
reviews. These metrics will be posted publicly on the CASIS website. 
Taking into account the scoring results, the CASIS science and economic 
teams will deliver the final recommendations to the Executive Director, 
Chief Scientist and Chief Economist, who will then make the final award 
and funding decisions. The methodology is designed to adapt to new and 
ever-changing market demands. The Framework in its entirety is spelled 
out in Appendix iii.
Outreach Efforts
    The vast majority of Americans, including business leaders and 
leading scientific researchers, simply do not know that the ISS NL 
exists and is open to them for research. To fully realize the potential 
of the ISS NL, there must be aggressive outreach and education 
activities to raise awareness of Station and its capabilities. This has 
become a top priority for CASIS. Over the last 11 months, we have set 
out to establish and develop relationships with new and previous 
researchers, commercial entities, entrepreneurs, financial partners, 
philanthropic organizations, educators, students, and citizen 
scientists. Since March, CASIS staff has met representatives from over 
165 organizations from coast to coast to inform them about the numerous 
opportunities to use the ISS NL.
    In addition, CASIS has supported the Destination Station outreach 
programs by participating with NASA on several research panels, Twitter 
Town Halls, University presentations, and informational exhibit booths.
    Last month, CASIS, in conjunction with the American Astronautical 
Society (AAS), was a co-sponsor and active participant in the First 
Annual ISS Research and Development Conference conducted in Denver, CO. 
During this conference, CASIS also successfully produced and 
coordinated the first-ever Implementation Partner Tradeshow, which 
included over 20 implementation partners exhibiting their capabilities. 
This provided a cutting-edge venue for the over 400 attendees, who 
could be potential users of the ISS National Lab, to collaborate with 
established payload implementation and integration partners, allowing 
them the opportunity to gain an understanding of the capabilities 
available to ensure the success of science missions.
    Over the last six months, CASIS has reached out to hardware 
providers, flight and integration specialists and others to create a 
consolidated directory of implementation partners to assist ISS NL 
users to efficiently and effectively get their research into space. The 
ever-expanding resource is the first of its kind and is available in 
hard copy or as a PDF via the CASIS website. It provides technical and 
contact information useful for ISS NL users and currently lists more 
than 35 specialized companies and organizations The objective is to 
match users with integration and hardware partners and in doing so 
stimulate new investigators and researchers by making it easier and 
more cost-effective for to prepare their research for flight.
    In June, CASIS announced the creation of the ``Space Is In It'' 
seal which the organization will bestow upon companies that 
successfully develop commercial products based on research and 
development, testing or use on the ISS NL. Through the ``Space Is In 
It'' endorsement, CASIS positions Station in the forefront of the 
general public's understanding of our space program. This seal adds 
marketing value to the ISS and allows non-traditional users the 
opportunity to understand the benefits of science in space. The goal of 
the seal is to connect Station and the ISS NL research with consumers, 
fix ISS awareness more strongly in people's minds and in pop culture, 
and to entice U.S. companies to look more carefully at the value of 
developing and researching products on Station. Last month, CASIS 
announced it would award the ``Space Is In It'' seal to any products 
developed by COBRA PUMA Golf from investigations on the ISS NL, after 
the golf manufacturer declared its intention to conduct materials 
research on Station with the hopes of creating revolutionary sporting 
goods for consumers.
Education Initiatives
    While the overlying mission of CASIS is to effectively and fully 
utilize the ISS, educating the future engineers and technical 
professionals of tomorrow about Station and careers in space are 
paramount to maximizing our Nation's investment. The CASIS Education 
Program seeks to use the research CASIS brokers on Station as a 
springboard to increase STEM literacy for all students from 
Kindergarten to higher education; excite students about STEM careers; 
support teachers in improving STEM education; and promote the ISS as a 
STEM learning platform..
    CASIS will work with commercial and academic National Lab users to 
develop curricula around their payloads in cases where it makes sense 
for educational purposes. This aspect of our education mission holds 
great potential for raising awareness about the ISS, supporting 
teachers, and teaching students about the practical uses of space-based 
research. This will be an on-going focus for CASIS staff. CASIS will 
also play a key role in ISS advocacy by developing curricula to excite 
younger children about Station science in general.
    In June, CASIS has signed an agreement with the Student Spaceflight 
Experiments Program (SSEP), spearheaded by the National Center for 
Earth and Space Education (NCESSC), to sponsor student science projects 
on Station. In 2013, SSEP could reach thousands of students and 
hundreds of communities nationwide. CASIS will work with NCESSC to 
enhance the program to expand its outreach.
    In another example of the innovative, multi-layer deals CASIS can 
make, the organization this year established a partnership with the PGA 
of America. By leveraging PGA's immense network of players, 
professionals, fans and sponsors, CASIS can bring attention and 
relevance to both Station and the space program by reaching a whole new 
audience of children, educators, companies, and decision makers. The 
first prong of this strategic cooperation constituted a pilot PGA STEM 
Enrichment Camp in June at the PGA Center for Golf and Learning. Over 
five days, in classroom settings and on a golf course, underprivileged 
children received instruction in more than just golf; they learned 
science, math, and engineering and about the ISS and the kinds of 
research that could take place there. They learned about the physics of 
golf and how the same principles are used by engineers and astronauts 
every day. The event was so successful that the PGA is considering 
rolling out the program nationally, initially expanding the program to 
50 sites next year, then to 250 the following year and up to 750 in its 
third year. This pilot program is model that can be adapted and used by 
other established organizations to reach the maximum number of students 
in the shortest period of time.
    Other initiatives that CASIS has put into motion with regard to 
educational endeavors include `Story Time From Space', in which a well-
known science children's author will write a series of books designed 
to create awareness about Station, which will be read by astronauts in 
front of video cameras on the ISS NL, exciting young readers about the 
world in space., . The videos will posted on the CASIS website and 
social media platforms. `Story Time From Space' will reach a previously 
underserved demographic and connect literacy with STEM concepts. CASIS 
is working to finalize this deal by the end of the year.
Operations
    The CASIS Operations Director was hired in 2011, and project 
management staff positions were filled beginning in January of this 
year. It is completely staffed, with six members. All team members have 
extensive project management and flight hardware experience from time 
at space centers, the aerospace industry, and the transportation 
sector. Operations staff members are responsible for working with their 
clients from project conception to completion. They will use their 
knowledge and skills to develop, integrate, and operate projects in 
order to accomplish the goals of users and to ensure alignment with the 
CASIS mission.
    The operations directorate has assumed responsibility for all 
National Lab projects and payloads scheduled by NASA for current and 
future ISS Expedition increments. This includes all research, planning 
and sponsorship efforts. In particular, CASIS has sponsored research 
plan updates, assisted with the development of science missions, and 
assembled the entire ISS NL research plan for September 2013-March 
2014, which has been approved by NASA. CASIS Operations is also 
managing flight opportunities in September 2012-September 2013 for 
unsolicited projects and the upcoming series of RFPs promoting the 
utilization of existing ISS facilities in earth observation and 
microgravity science.
    With regards to fulfilling future increments as required by our 
Cooperative Agreement, we are ahead of schedule. CASIS has identified 
and developed payloads that will be flown on Increment 37/38, well 
ahead of the Increment 39/40 time-frame set in our Annual Performance 
Plan (APP). During Increment 37/38, we are working towards flying 5 to 
6 payloads consisting of unsolicited projects that are currently being 
vetted through our evaluation process. Additionally, we plan to deliver 
the Windows on Earth software at the end of this year during Increment 
35/36. These missions will serve to validate CASIS' processes and 
capabilities, as required by the APP.
    The operations division has also worked with NASA to transition all 
National Lab projects to CASIS, with the exception of two due to 
extenuating circumstances. As part of this effort, CASIS adopted the 
commitments of the existing Space Act Agreements and entered into new 
Memorandums of Agreement with existing National Lab partners to ensure 
a continuation of project support and other commitments within CASIS's 
ability to support.
    Under a MOA signed with Bioserve, CASIS has tasked the company with 
developing a commercial rodent research model in cooperation with NASA 
Ames and Professor Ted Batemen, a leader in the field of space-based 
rodent research. Our goal of flying a proof-of-concept mission in the 
Fall 2013 cuts in half the time it would normally take to develop and 
deploy such a concept. Along with establishing ground and on-orbit 
processes, this initiative will include the demonstration of on-orbit 
analysis capability, which has never been available to researchers 
before. Pursuant to this case, we will fly an off-the shelf bone 
density scanner, which is being hardened for use in space, to develop 
new means for future osteoporosis research.
    The importance of developing a long-term, robust animal research 
platform cannot be underestimated; it was deemed important by a recent 
decadal survey as well as the CASIS interim science collegium as key to 
utilization and maximization of return on investment. The brand new 
opportunities for research this initiative will provide are essential 
to developing new business for the National Lab; several pharmaceutical 
companies have expressed serious interest and a willingness to use the 
ISS NL, and are eagerly awaiting the successful accomplishment of 
milestones. This project will also benefit NASA, in that it will be 
able to utilize this innovative method and hardware for exploration 
focused research.
    Moving forward, this effort will greatly expand the ability of NASA 
and commercial users to conduct life sciences research in ways that 
have never been done before. This will enable ISS NL users to move from 
limited fundamental research to applied research, product development, 
and ultimately, commercial realization.
    Another example of the successful transition of projects from NASA 
to CASIS is the MOA with NanoRacks. Through this agreement, CASIS has 
reserved space on the first commercial platform available for 
researchers outside the ISS in the extreme environments of space. CASIS 
will be issuing a formal solicitation for proposals to use this one-of-
a-kind platform for anything from earth observation to materials 
research and biological sciences.
    This opportunity enables NanoRacks, the provider of sophisticated 
shoe-box sized space research hardware, to begin design and fabrication 
of the external platform pallet and be ready for flight in early 2013--
almost a year ahead of schedule. By enabling NanoRacks to extend their 
``NanoLabs'' outside Station, CASIS is helping to bring a whole new 
generation of researchers to the ISS. The deal also fulfills part of 
the CASIS mission to enhance capabilities of the ISS NL.
Challenges
    As a new organization, CASIS recognizes the inherent obstacles 
encountered in standing up a new and unique entity. Similar operations 
typically encounter growing pains. CASIS management must endeavor to 
maintain independence from NASA, while creating a new way of doing 
business on the ISS NL. In such circumstances it is not uncommon to see 
management changes and executive turnover. CASIS was no exception in 
this regard.
    In February 2012, Dr. Jeanne Becker, the CASIS Executive Director, 
announced her resignation citing the pressures that she felt at the 
head of the organization. New management stepped in to get the 
organization on track and to keep it moving forward. Since Dr. Becker's 
resignation, CASIS has been developing the initiatives started under 
Dr. Becker and executing our mandate.
    As we have sought to implement the Cooperative Agreement, we have 
encountered several challenges. As with any engineering project or 
standup business, there were many issues that Congress, NASA, CASIS and 
our guiding documents failed to anticipate or address prior to 
implementation. Given the fact that this concept is brand new and that 
our mission is to develop and establish innovative ways to promote the 
ISS NL, challenges were expected.
    CASIS is currently working with NASA regarding the handling of 
Intellectual Property and Data Rights, the resolution of which is 
essential to securing commitments from commercial users. CASIS 
continues to work with NASA to find resolutions to these and other 
critical questions, while understanding our role to establish new 
pathways and maintain independence from NASA.
    How to best capture unsolicited proposals is an area that is 
continuing to evolve.
    Because unsolicited proposals will by their very nature address 
topics CASIS might not be pursuing through a formal solicitation 
process, we set out to develop a fair, streamlined process that aligns 
with overall goals and organizational structure. As with the formal 
solicitation review process, this method takes into account market 
realities, resources, and scientific merit. Several unsolicited 
proposals are currently moving through the pipeline as test cases for 
CASIS procedures and criteria.
    Through significant promotion and outreach efforts, CASIS has and 
will continue to receive many unsolicited proposals from academic and 
commercial investigators hoping to utilize the ISS NL. Many have their 
own funds and are only seeking CASIS' support with transportation, 
payload integration and/or hardware/experiment design. This unsolicited 
interest has driven the CASIS Valuation and Prioritization Framework to 
evolve so that we do not disenfranchise potential users of the ISS NL. 
History has shown that people have unique and powerful ideas, and CASIS 
has created a process that will capture, evaluate and prioritize all 
unsolicited commercial and academic proposals to conduct science on the 
ISS NL.
Conclusion
    Over the past 11 months, CASIS has seen its share of negative 
press, in particular, with the resignation of our Executive Director. 
Since that time-frame however, CASIS has continued to move forward, 
effectively promoting the ISS NL aggressively and passionately. Through 
any struggles that might have been perceived, CASIS has continued to 
meet or surpass all milestones established for the organization during 
its first year.
    CASIS is now moving from its standup phase to become a fully-
operational organization. From our first RFP to announcing partnerships 
with non-traditional users, CASIS has been making tremendous strides 
towards maximizing the use of the ISS NL. Our staff continues to engage 
potential users of Station, developing and evolving our processes which 
will further identify research opportunities, and with our new Board of 
Directors nearly in place, the future for CASIS and the ISS NL is 
unquestionably bright.
    The entire CASIS team believes Station is the next emerging market 
and we plan to promote the world's greatest engineering achievement as 
a mechanism to create beyond what was previously thought possible. Time 
is quickly passing, and CASIS will continue to be aggressive in our 
efforts to bring users on board Station, creating breakthroughs that 
will benefit humankind

                                 ______


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Senator Nelson. Thank you so much.
    I am going to turn first to Senator Hutchison, and I would 
like, in the course of the discussion, if you all would bring 
out what is going on on the development of the vaccines, an up-
to-date report.
    Senator Hutchison?
    Senator Hutchison. First of all, Mr. Royston, thank you for 
the report. Because we are anxiously awaiting the appointment 
of the board so that we can see the CASIS get up and go and 
really start showing results. And I think the board membership 
will be crucial, and I am encouraged that you are saying it 
will be leading scientists, as well as people in business.
    Dr. Pettit, I would like to ask you, if you identified any 
areas--and of course, Mr. Reiter, I would like for you to jump 
in as well on this area where the ability to perform valuable 
research aboard the Space Station could be improved. Are there 
any specific suggestions on what we could add or what more 
would be effective on the Space Station for the basic research?
    Dr. Pettit. Senator, currently, I believe the rate-limiting 
resource for doing scientific research on Space Station is the 
availability of crew time. We have an amazing infrastructure 
that is currently just getting going with the commercialization 
of space, for bringing supplies to Space Station, where we have 
more scientific apparatus on Space Station, more equipment 
waiting to be used, more science experiments in the queue than 
we have crew time in the USOS segment with three crew members 
that we could spend working on this.
    And currently, crew members are working about 13 to 14 
hours a day. And out of that, we can get about 6.5 hours of 
mission programmatic work done.
    And you may wonder why we work 13, 14 hours a day, we only 
get 6.5 hours of program work done. That is because we are in a 
frontier, a harsh frontier, and we spend 13, 14 hours a day 
just to keep the machinery going and keep it possible for human 
beings to be there. And you will find this is commensurate with 
other frontiers that are harsh on the surface of Earth.
    If you go to Antarctica, which I had the opportunity to go 
and participate in the Antarctic search for meteorite 
expeditions that is jointly funded by National Science 
Foundation and NASA, we were looking for meteorites on the 
glaciers maybe 200 miles from the South Pole, living in Scott 
tents, which have changed very little from the design that 
Scott used when he did his expeditions.
    We would spend 13 to 14 hours a day working in this 
Antarctic environment to enable about 6 hours of actually 
mission work gathering meteorites. And we would spend time 
working on our snowmobiles. We would spend time just trying to 
chip at the ice so we could make water, drying your gear, all 
these--shoveling snow so your tents wouldn't get buried by the 
sastrugi. And we would work 13, 14 hours a day just to enable 
the 6 hours of on-the-mission work.
    I think if you look at deep sea, people living in the deep 
sea doing work, saturated conditions on platforms, it is 
difficult to put human beings in a harsh environment and have 
them work more than about 6 hours of on-the-mission work.
    And so, what we find in Space Station is commensurate with 
what we find on Earth in these harsh environments, and you 
reach a limit with a crew of three of how many hours can you 
work and still keep your mind, still keep your wits, and still 
get enough sleep so that you can respond to contingency 
situations? And so, currently, our ability to do the 
engineering and organization to get scientific equipment up and 
the ideas behind the science experiments, there is no shortage 
of that. It is crew time.
    Senator Hutchison. So we need to get seven people in that 
station. That is good.
    Mr. Reiter, did you have anything to add?
    Mr. Reiter. Yes, thank you, Senator Hutchison.
    I believe considering the fact that we have almost just 
transitioned from a buildup phase of the ISS to a quasi steady-
state operation, it is a little bit early maybe to really say 
if we already are utilizing the station in an optimum way.
    Don has just mentioned we have given parameters, assets. 
Crew time is one of them. Up and download and scientific 
facilities that have been mentioned. And I think the next years 
will show where there are further areas of improvement.
    Now from a programmatic point of view, I can imagine that, 
for example, in the coordination, in the international 
coordination of research subjects, there is space for 
optimizing the processes. And in fact, ESA has currently 
identified more than 20 joint experiments together with NASA 
and in total more than 50 with all the ISS other partners, and 
the shared use of this unique orbit research infrastructure and 
the assets is of high importance and will help us to see where 
there is area for optimization.
    In addition, I have to say, of course, looking at the 
internal processes, there are certainly areas where I will look 
into the future. For example, one of the remarks I am receiving 
from the scientific community in Europe is that the turnaround 
time maybe can be improved.
    This is motivated by comparing it to the time of the 
Spacelab, which was flying a couple of years ago onboard the 
Shuttle. And I will look into the possibility if we can indeed 
decrease the time from the moment where the scientists are 
proposing their experiments until they hold the results in 
their hands.
    Also I think in a structural way we are using multiuser 
facilities, big facilities in the various modules, and I will 
see if this is the right balance with these huge multiuser 
facilities, compared to small experimental hardware which is 
dedicated to single experiments. If we can optimize that in 
order to improve or to increase the scientific outcome, but 
that will need some time of this steady-state operation that we 
have just entered.
    Senator Hutchison. Thank you very much.
    I will have another round, but let us let everybody go.
    Senator Nelson. OK.
    Senator Hutchison. And I like your virus issue. You need to 
cover that.
    Senator Nelson. Yes. As a matter of fact, I want to ask you 
about that. But I just want to point out that since we were 
talking about Sally Ride, that the American astronaut on the 
station now, Sunita Williams, will become the second female 
commander of the Space Station crew, coming this September. The 
first female Space Station commander was Peggy Whitson, who is 
presently the Chief Head of the Astronaut Office.
    So, again, we see these women pioneering. I thought it was 
also in the number of comments that had been made to the press 
about Sally that one of the most interesting was from the first 
female commander of the Space Shuttle, Eileen Collins. So, with 
that backdrop, we proceed.
    Would you all--before I turn to Senator Rubio, would you 
all share with us, whoever, about the advances on the vaccines?
    Mr. Gerstenmaier. I can do that a little bit. We have 
learned that almost all bacteria and viruses in space mutate 
into a large, different gene strain. And we have flown 
salmonella several times on the Shuttle.
    Senator Hutchison. I couldn't quite understand. Did you say 
large and different?
    Mr. Gerstenmaier. Yes. Different, and they mutate----
    Senator Hutchison. They mutate? OK.
    Mr. Gerstenmaier.--to various strengths of the various 
bacteria and viruses. So, for example, salmonella, you fly it 
up and you get back a whole variety of different salmonella 
than you would typically see here on the ground. Some are 
stronger, some are weaker.
    Then what we have been able to do or what the investigators 
have been able to do is they return these samples to the 
ground. They then learn which genes turn on the strength of the 
salmonella, which genes potentially turn it off. Then they can 
genetically engineer a strain of salmonella that is strong 
enough to give the human an immune reaction, but not strong 
enough to actually give you the disease, and that is the basis 
of the vaccine.
    So they have done enough trials on orbit that this looks 
very promising. The same thing can occur for viruses. So flu, 
you could potentially engineer a flu vaccine ahead of time with 
a very quick turnaround.
    Again, it is still conceptual, and we don't understand why 
bacteria and viruses perform this way in space. The company is 
close to taking this into FDA trials. We have done almost 
enough work to go complete that activity and take it into 
trials. I believe they would still like to fly a few more 
samples to space to get some more material back and then maybe 
do a little more research before they prepare the final package 
that goes to FDA.
    We are still discussing with them exactly how they are 
going to work that out in the future. But this is one very 
promising area where we don't know exactly the reason that this 
occurs in space. But if you give it to a creative industry, 
they are able to take this phenomena and then apply it in a way 
that is tremendously beneficial to us here on the Earth.
    So I think this area of research in virus and vaccines has 
a lot of interest to us. Arizona State is also looking very 
hard at trying to understand why this occurs. So they are 
looking at it from kind of the pure research side. What is 
unique about the properties of microgravity that causes these 
viruses and bacteria to behave in this unique way? So very 
promising.
    Senator Hutchison. That is going to be essential because 
you can't manufacture enough up there to bring back very 
easily. So that is really going to make a difference if they 
can figure out what that cause is.
    Mr. Gerstenmaier. And the advantage is once you understand 
which genes are turned on and turned off, then you can 
manufacture this vaccine on the Earth. So it no longer requires 
you to go to space.
    So you just use space to essentially spark your creativity 
about which genes are effective in making the virus stronger or 
weaker, and then that can be used on the ground then to 
actually generate the vaccine.
    Senator Nelson. What about the vaccine for the raging 
bacteria MRSA?
    Mr. Gerstenmaier. It does the same exact phenomena as the 
others, and we believe a similar strategy can be developed for 
the MRSA, the resistant bacteria that is a tremendous problem 
to us in hospitals. So, again, we are working with some 
companies to go take a look at that as well.
    Senator Hutchison. Could I just pursue this for one second 
and ask you if you have got vaccines, and can it also apply to 
cancers? And can you grow cancer cells and look at a mutation 
and determine if there is a vaccine or an antidote for that?
    Mr. Gerstenmaier. It is not as clear in the cancer case, 
but we have some researchers that proposed some investigations 
along the cancer line. But what we have done is we have flown a 
variety of both bacteria and viruses to space to confirm that 
it is there.
    We have not done enough research in the cancer area to 
understand if there is a connection in there. We could get some 
of the actual researchers to come, give you some information 
specifically.
    [The information requested follows:]

Clarification on vaccine development in space
    The increased pathogenicity in microgravity comes from changes in 
gene expression (which genes turn off and on), but there is no mutation 
involved--microorganisms have the same genes before, during, and after 
flight. There is no connection between bacterial virulence and cancer.
    Arizona State University (ASU) assisted with the discovery on 
pathogenicity changes in space, but is not participating in on-orbit 
Salmonella or MRSA vaccine development. ASU may do some additional 
spaceflight studies in the future to see if they can improve a vaccine 
for pneumonia that is in clinical trials.
    Astrogenetix has not applied for Investigational New Drug Approval 
from the Food and Drug Administration (FDA). Additional flight work may 
be required before they apply--and this could be years away--depending 
upon what the company believes is required to ensure a positive finding 
from the FDA.

    Senator Hutchison. Yes, because I know they have done 
breast cancer cell growth in space. And if they could do the 
same for that, that would be a medical breakthrough of 
phenomenal proportions.
    Well, thank you.
    Senator Nelson. Mr. Royston, what is CASIS doing to manage 
this kind of research?
    Mr. Royston. Good question, Senator.
    I think with this--and Mr. Gerstenmaier did a good job of 
explaining what some of the areas are being looked at and what 
has been done. One of the things that I see CASIS really 
providing a real baseline to is with our, as you will see soon, 
the Board that is coming on, let alone our scientific collegia 
that is made up of some of the brightest minds out there in 
biotechnology, materials technology, but especially in the bio 
areas, that we can take and baseline all this work.
    Because as a nonprofit, we are not trying to get new 
research money and we are not trying to be somewhat biased 
within our research. We need to be able to gather that, put it 
together, and that is what we have started doing so that we can 
then pass that on to researchers that are looking at areas of 
either antigenicity, muscle wasting, or osteoporosis.
    But we will have gathered that up and put real facts around 
the science and be able to say this is the baseline by which 
you can build on.
    Senator Nelson. Senator Rubio, before I turn to you, this 
prompts another question I have got to ask the two of you that 
have been in space for so long. What we are finding in the 
annual physical exams is bone loss. What has been your 
experience with this since, I would assume, that the bone loss 
would be directly proportional to the amount of days in space?
    Dr. Pettit. Senator, bone loss is something that we are 
starting to get a handle on, and we have an empirical remedy. I 
won't call it a solution, an empirical remedy that if you 
exercise in the right way, and in some respects a 6-month trip 
to Space Station is like spending 6 months in health camp in 
terms of the amount of exercise that we do. We found that this 
keeps the bone density at bay.
    It doesn't prevent it, but it keeps it in a manageable 
category. And again, we don't know why. It is an empirical 
remedy. We are working on what the fundamental cause of this 
is.
    And I liken this state to where scurvy was around 1750 when 
some British surgeon found out that if you suck on citrus, you 
keep scurvy at bay. They didn't know why. It took another 150 
years before we even discovered vitamins and the idea that 
small amounts of organic compounds are essential in maintaining 
human health and then the fundamental cause of scurvy through 
lack of Vitamin C.
    It is the combination of, first, an empirical solution, 
which allows the seaman to go out and not get this disease and 
eventually coupled with the basic understanding, and it is a 
basic understanding that allows all the people that stay on the 
continent that don't go on these voyages to benefit from this 
information, which is literally pried from the souls of those 
who explore.
    And this is what we are doing right now with the bone 
density loss. We don't know why. We need to continue the effort 
so that we understand fundamentally what is going on because we 
have got this gravity knob, which we can now tweak and 
experiment on human beings as well as other creatures. And this 
allows us to dissect out new pearls from the human physiology. 
And we have got this empirical solution that will allow us to 
continue to explore space, but we need to understand the 
fundamentals, and that is what will bring the benefit to 
everybody that stayed firmly planted on this planet.
    Senator Nelson. Of course, osteoporosis is a real problem 
here on Earth.
    Senator Rubio?

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you.
    It is actually along the lines of what you have already 
been asking. So I will just continue it. You know, one of the 
things that we face a challenge with today when you talk to the 
everyday man or woman on the street is, well, why are we 
spending all this money at this time in our history on these 
things when we have so many other needs?
    And I think one of the answers to the question is what you 
have been talking about today, is all these innovations that 
are only possible in that setting. So we have talked about 
vaccines. You talked about bone loss, another. What other kinds 
of--and I think this is for the whole panel--what other kinds 
of advances, whether it is for commercial and consumer 
application or health applications, what other kinds of 
exciting things are happening up there in that setting that 
justify these expenditures which allows us to get people 
excited about space travel internationally, but also 
domestically?
    Dr. Pettit. I will punch the button on the microphone 
again.
    If you look at fire, fire and its either discovery or 
learning how to tame fire is what literally brought us out of 
the cave and allows us to have our civilization in terms of 
what we know now. Fire gives us our electricity. Fire allows us 
to have vehicles, airplanes, and cars and machines. It 
literally turn the wheels of our civilization.
    Fire has--and from a scientific point of view, we don't 
call it fire. We call it combustion. It has a strong 
gravitational factor to looking at what is going on in 
combustion, and we learn empirically that heat rises, right? We 
learn that from fire. Fire goes up.
    Space Station now offers us the ability to dissect deeper 
down into what the processes are in combustion that literally 
turn the wheels of our society by looking at it in an 
environment free from gravity, free from the gravitational 
driven convection. And this allows us to look at things and 
figure out what is going on at a level that you could never see 
without taking it to space.
    And one experiment that I worked on on Space Station this 
last mission was looking at solid air combustion and looking at 
it under lower convection, lower differential velocities 
between the air and the fuel that was being burned than what is 
possible on Earth because of the convection.
    And what we found is that things are more flammable than 
what we thought. That here on Earth if you lower the convection 
to a certain point, the flame goes out. But in microgravity 
environment, we found that the combustion will continue at a 
state of lower convection than what we can actually go to here 
on Earth.
    And what the effect of that will be in terms of turning our 
wheels in our civilization, I don't know. but it is one small, 
little step, incremental step in learning more about how this 
combustion process works.
    Mr. Royston. Well, Senator, I will just add that when we 
look at it again as trying to develop new pathways and develop 
new kinds of markets, if you will, for certain things, we kind 
of look at it in, I would say, almost four areas. We talked 
about life science. And in life science, I think there are just 
a vast number of things that we can do in life science.
    We talked about muscle wasting, osteoporosis, and tissue 
generation. Diagnostics, I think, are really going to bloom in 
that area.
    Then we move over into material science. I think there are 
some very unique things that we will see in the future in the 
areas of material science. Nano alignments, crystallization, 
different things that we can do by taking that gravity factor 
out.
    And then we move over into physical science and some 
others. But one thing that sometimes gets forgotten, and I look 
at it almost as kind of a satellite guy, we have constructed 
basically the largest, most powerful spacecraft up there ever 
imagined. So with that sitting up there, we can do some really 
amazing things in Earth observation.
    We can put new instruments up there almost immediately, and 
we are working on some of those now with companies. This is a 
vehicle that passes almost all land mass every few days, and it 
is great platform to do Earth observation.
    So there is a plethora of things that are really there, and 
I think it is for us to kind of compartmentalize them, put them 
out, and then get out to those industries that can really 
utilize them.
    Mr. Reiter. Senator Rubio, I had last Saturday a 2-hour 
interview on a Saturday morning radio show where I got a lot of 
phone calls that I had to answer that were exactly related to 
the question that you were just asking. Why are we spending so 
much money for that?
    And as Don just did, I think there is a lot of 
justification. Living in a world without gravity allows us to 
look into processes that help us to understand how life is 
functioning, and into a lot of physical process and that, in 
turn, creates certainly tangible benefits for society.
    However, in that I would like to add here, if we only look 
at those direct tangible benefits, I think we leave out an 
important aspect, and that is the fact that gaining knowledge, 
gaining insight into the surrounding is a benefit by itself, 
even if it is not immediately connected to, let us say, a 
utilization here on ground.
    The aspect of exploration which Don described is one of 
these examples. If we fascinate our young people to get engaged 
in these STEM topics, I think that is also a benefit, which is 
maybe not directly tangible as maybe creating new materials or 
new drugs or vaccines that help us to fight diseases. But I 
think we always need to have the view on these overall 
benefits, the tangible and not the tangible ones.
    And last, not least, I think the cooperation, the 
international cooperation, as I also stated before, is an 
important aspect of space flight. Working together in space is 
a very valuable asset.
    Thank you.
    Mr. Gerstenmaier. Just add quickly, any physical phenomena 
that we have that has a little g in it, the gravity vector, 
when you take it to space and you remove that gravity, you get 
a different insight into that physical phenomena. And then that 
allows researchers and companies to potentially exploit that 
benefit like we have been discussing here in new ways we can't 
imagine.
    But it is tough to predict exactly where those 
breakthroughs are and exactly how they are going to pay back. 
But if they start, you could potentially start a whole new 
industry that never existed before.
    The other thing it does, I think, to Thomas's point, the 
intangible benefits, one thing is the creativity aspect. If you 
look at these student experiments that are flying up on the 
Japanese vehicle, the one student's experiment was to take a 
jumping spider and fly it into space.
    And this spider knows how to jump from one spot to another 
based on the gravity that affects the spider. So he knows 
exactly how to jump on his prey. What will happen in zero 
gravity where he no longer has that gravity?
    Will this spider now learn and adapt to jump in a different 
direction as the humans do after a while? When they first get 
on space, they see these guys bump around. But then after a 
couple of days, they are honed in on the zero g phenomena, and 
they can float pretty effortlessly. Will the spider do that?
    But what was interesting is this student in his own 
creativity, he imagined what this would be like, and he thought 
about a physical phenomena, a physical insect, and said, well, 
how will that perform?
    And that creativity and that ingenuity and that excitement 
in this student is just an amazing thing going forward. So how 
do you quantify that as being worthwhile?
    Senator Rubio. What did the spider do?
    Mr. Gerstenmaier. We don't know.
    Senator Rubio. Oh, OK.
    [Laughter.]
    Mr. Gerstenmaier. Spider news this fall, when he actually--
Sunita will do the experiment. But that is the point. It is 
this inquisitive nature that really brings out the best in us 
and can really compel a nation to be exceptional.
    Senator Rubio. Let us know about the spider when that 
happens. Now I am dying to know.
    Mr. Gerstenmaier. Will do.
    Senator Rubio. Thank you. Thank you. Those are great 
answers.
    Senator Nelson. Senator Boozman?
    Senator Boozman. Thank you, Mr. Chairman.
    Mr. Gerstenmaier, one of the things that comes up a little 
bit, we have lost American access to the Space Station using 
our Space Shuttle orbiters. I guess the question is have we 
lost a significant barter/able asset that perhaps will diminish 
the amount of research that we will be able to accomplish in 
the next 8 or 10 years?
    And from where we stand today, will our research be 
increasing? Our capacity, will it be increasing or decreasing 
as time goes by?
    Mr. Gerstenmaier. I think, as we have discussed earlier, 
from a cargo standpoint, we have a pretty good ability to get 
cargo to Space Station. And we have the HTV, the Japanese cargo 
vehicle, which is on its way to station. We have the ATV, which 
is from the European Space Agency, currently attached.
    We saw the SpaceX demonstration this year. They are going 
to schedule to fly again possibly this fall in the October 
timeframe. Then Orbital is working on their cargo vehicle. Its 
demonstration flight should be probably by the end of this 
year, probably in the December timeframe.
    So we see we have a pretty robust with multiple vehicles 
that can carry cargo to station. That is important from a 
researcher to make sure that their research experiments get to 
space and get to Space Station.
    On the crew side, we have the Soyuz vehicle. We would like 
to get a redundant capability for that as soon as we can. That 
is the basis of our U.S. commercial crew transportation 
activity. We need to bring that online as soon as we can to 
have a redundant way of getting crew to space.
    I am not concerned about the Russians' ability to do that. 
It is just our environment is very tough. You know, when we had 
the Columbia tragedy, the Soyuz was able to back up our 
transportation and was able to keep this continuous crew string 
that Senator Nelson talked about possible onboard Space 
Station. So we were able to use that Soyuz vehicle during that 
time.
    Right now, we are essentially single string, with one way 
to get crew to orbit, the Russian Soyuz. We would like to get 
our U.S. crew transportation system online as soon as we can, 
and we are working that as fast as we can. Hopefully, by 2015, 
2016 timeframe.
    Senator Boozman. Very good. Thank you.
    Let me ask you guys, and again, whoever would like to 
comment. But as a scientist and then just as a citizen, we have 
talked about the spider. We have talked about bone loss. I am 
an optometrist, an eye doctor, and interested because I know 
there has been some visual things that have gone on.
    But all of this research is going on up there and down 
here. I guess my question would be what excites you the most 
about specific areas that we are doing that you see the most 
potential in the future? If you had to pick a thing, what would 
it be?
    Dr. Pettit. I think one of the most exciting parts of going 
into a frontier are the pages of the book that don't have any 
writing on them yet because you don't even know enough to know 
should this be the exciting part? Should this be the 
significant part?
    And certainly, you bring up the idea of these eye maladies 
where about 20 percent of the people living for long duration 
time on Space Station come back with these wrinkles on your 
retina, and there is a name. I think they call them choroidal 
folds, these technical names. You know how engineers and 
scientists, they like to talk tech.
    But what they really are, are wrinkles on your retina. And 
depending on where they go, they can impact your vision. And we 
currently haven't a clue as to why they form. There are certain 
mechanisms for these wrinkles forming with people on the ground 
that have to do with elevated intracranial pressure, again, 
another term for just saying the pressure in your brain.
    And we have just learned that these wrinkles can form on 
station crew members that have low to normal intracranial 
pressure. So thoughts on why these things form, we haven't a 
clue now.
    And another thing that makes this really fascinating is 
that they are predominantly in the right eye. So why is it just 
the right eye. Sometimes the left eye, but mostly the right 
eye. And it is like a Sherlock Holmes story. These are little 
nuggets. These are little clues scattered about which tell us 
something about the human physiology.
    And again, the pages of this particular chapter have not 
even been written because we are currently in the process of 
writing them. The answers are clearly not in the back of the 
book. And when you go into a frontier, it doesn't get any 
better than this.
    Senator Boozman. Mr. Royston?
    Mr. Royston. Yes, Senator. I would add to that one of our 
challenges is, and I think all of us in this room agree, is 
time, right? So we are looking at how we can get success as 
fast as possible.
    So, one, it continues to show everybody that we need to 
keep this great outpost going. We need to continue the 
research. But for us and for my organization, one of the things 
we try to kind of bubble up to the top are those things that we 
think can have the earliest impacts.
    And we mentioned osteoporosis, and one of the things there 
is it is a good example of a known. We know there is bone loss 
in space. So in order to test osteoporotic drugs, you need bone 
loss.
    And typically, to get that, you have to test older patients 
that have other problems, have other things. Where if we are 
able to go into space and I have an animal model there that is 
still in good health, but their bone loss goes down by 80 
percent, that is an unbelievable test bed to be able to look at 
drugs and rapidly do either first-fail scenarios or be able to 
determine what is going to work and what isn't.
    Now, as we talked about with either virulents or some of 
the other things, I think it is taking the knowns that we have, 
with protein crystal growth being another one. We know that we 
can grow better proteins. We can do better crystallization 
because we have taken the vector out, that gravity vector, as 
Bill mentioned. But our goal is to really look at the knowns 
that we have up there in parallel with the unknowns.
    So we are trying to use what we know is current capability 
and things that are going to work with the fundamental science 
of why is it happening, and what is it doing? So from our 
perspective, it is a balancing act. We want to get moving on 
the things we know will make a good research test bed and 
development, but also don't forget the fundamental science and 
the whys that are happening.
    Senator Boozman. Yes. I think it really important in the 
sense that one of the things that you all have to do a good job 
as components of the agency is being able to relate what the 
positive things that are going on. And certainly, we as members 
that are very supportive, the Committee, have to do a good job 
of being able to relate to the public. The fact that we are 
spending a lot of money, but this is the--these are the very 
positive side effects that we are getting as a result of that.
    So thank you, Mr. Chairman.
    Senator Hutchison. Mr. Chairman?
    Senator Nelson. Senator Hutchison, of course.
    Senator Hutchison. Can I ask one quick question? Because I 
have got to go, but I wanted to ask Mr. Gerstenmaier a two-
pronged question. Number one, is there the possibility of 
extending the life safely of the Space Station beyond 2020? And 
if so, is it being considered?
    And the second part of the question is, I am fascinated by 
this NASA picture on the Earth observation issues that have 
been mentioned by several of our astronauts and researchers, 
and the importance of being able to see the Earth for river 
plumes, for flood depth, for earthquakes or rather volcanoes 
that we don't feel yet, but you can see it from space, managing 
fisheries, oil spills. All those things.
    Can we put an orbiting satellite up with cameras that could 
do what the Space Station does? Or are we in need of having 
another capability to do these observations?
    Mr. Gerstenmaier. I will try to do both of these, and then 
these guys can fill in a little bit. The first one, beyond 
2020, we are looking technically to make sure that there is not 
any problems with extending Space Station. So we are looking at 
physical system seals, rotary joints, those kind of things, 
major components.
    What is the life-limiting factor for Space Station? And we 
are doing that with our partners, taking a look at that. And we 
think we can, from a physical standpoint, station can be 
operable probably to 2028. We are still looking at structural 
life and other things. So we have done those investigations.
    I think it is important to us at this point to really focus 
on, as these guys have discussed earlier, of utilizing station 
and showing some benefit and return back. And if we can do that 
in the next couple years, then I think the discussion about do 
we continue beyond 2020 becomes a little bit of an easier 
discussion.
    So at this kind of juncture of where we are transitioning 
from, from assembly to research, I think we need to get a 
little bit more of this research under our belts and to make 
the systems proven a little bit that we can then sell those to 
our governments and folks to move forward to extend station.
    To the other question about Earth observation, I think 
station is a tremendous platform to do technology development. 
So if you have potentially a new sensor that it is maybe not 
mature enough to actually put on a dedicated satellite, you 
could fly it very easily to station, mount it on station, get 
some quick results from it, and determine that, hey, this is 
really a good device to go use.
    And then after you determine that, then you could go put it 
on a dedicated satellite. We have done that with a couple. We 
have the ISRV, which is essentially a telescope that will be 
set in the window observation facility. It is on HTV. It will 
look for disaster areas. It is part of the severe network, 
where you can call up for a disaster. You can get location 
information.
    There is also, I think, the HICO-RAIDS experiment, which 
may have been the pictures you were showing to me there.
    Senator Hutchison. It is.
    Mr. Gerstenmaier. Yes, that is a hyperspectral spectrometer 
that was developed by the Naval Research Laboratory. That was a 
very quick demonstration to see what could be done onboard 
Space Station with a quick device to get up and see what kind 
of information they could get out of it.
    It has actually operated for much longer than they 
anticipated, but it is a good test bed for those quick kind of 
tests to make sure that the equipment or the device you want to 
fly is really the right device to fly.
    Senator Hutchison. Thank you very much.
    Dr. Pettit. If I could add a couple of words? Oftentimes, 
it takes a human being in the loop to figure out what it is you 
really want to measure in the first place. And for example, you 
could put a satellite platform in orbit, and you know that you 
shouldn't look at the direct reflection of the sun off the 
ocean--that is called sun glint--because it could burn out your 
detector.
    Now you put an astronaut on orbit, and sometimes they don't 
have the kind of common sense that you would think they should 
have. And we will go ahead and look at the sun glint off the 
ocean because, wow, it is neat. And then all of a sudden, you 
could see some structure off the surface of the ocean. Because 
of the way the lighting is coming directly from the sun, you 
can see things that nobody knew was there before because, of 
course, you don't take a detector on a satellite and let it 
look at a direct reflection from the sun.
    And once you make that discovery, then you could optimize a 
satellite platform for making that observation. And it could 
collect more data, possibly better data than what the human 
being could have made in the first place. But it takes a human 
being somewhere in the loop to realize that you can look 
outside of where your initial design was made by people on the 
ground who have never been in space.
    Senator Hutchison. So important. That is so important 
because we do have people who say, oh, we can do all of this so 
much more efficiently with no people, and just machines. But 
that is one very good testimonial.
    Dr. Pettit. One thing to say about that. In space, there is 
no issue with machines, robots, and human beings working 
together. We work together hand and end effector in space, no 
issues.
    Where I find the conflict really occurs is here on the 
Earth. So, in space, astronauts love robots because it allows 
us----
    Senator Hutchison. And in that 4 square miles in 
Washington, D.C.
    [Laughter.]
    Dr. Pettit. Yes.
    Senator Hutchison. Thank you very much.
    Mr. Reiter. Senator, if I may add just a short comment 
also? From the European point of view, we have launched an 
announcement of opportunity exactly in this regime last year, 
asking in the Earth observation community if there is, indeed, 
some interest to use ISS as a platform for Earth observation.
    And we received, indeed, a lot of replies, more than 80, if 
I remember correctly. And all very valuable replies, which were 
in support of using the ISS for Earth observation.
    And in fact, we have on the Columbus module, we have a 
sensor installed, a sensor that receives the identification 
signals from ships. And that is the classic application where 
you design the sensor, optimize it, and then bring it in future 
on satellites in an optimized way.
    And I think that is a good example how, indeed, the 
International Space Station, in addition to the examples that 
Bill and Don just gave, can be used in the area of observation.
    Senator Hutchison. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Nelson. As you have to leave, Senator Hutchison, I 
am going to follow up asking about some things on cancer that 
you raised, and we will get that information to you.
    Years ago, in the very beginning of the protein crystal 
growth, which CASIS, Mr. Royston, is now directing a number of 
those experiments. Originally, and when I participated in this 
experiment, it was actually proposed by the Comprehensive 
Cancer Center at the University of Alabama at Birmingham.
    And that over the years has morphed into the protein 
crystallography center. And I would be curious from that very 
first experiment of which we had some dramatic results.
    You take away the influence of gravity in growing protein 
crystals. They grew much larger and, at first blush, much more 
pure. The idea by the cancer center at UAB was, well, if you 
can then back on Earth determine the molecular structure of the 
protein, you could manipulate it to then do what you wanted 
with regard to cancer research.
    Now this protein crystallography has been going on for 
years, and you are directing some of it right now, Mr. Royston. 
What has happened since January 1986 on this?
    Mr. Royston. And Senator, by no means am I an expert in 
this area. So I will--I will do my best to convey from the 
science team, and some of the people that flew with you and 
worked with you have still been involved. I think it is an 
area, if we had more biotech representation here, we would hear 
that it is still an ongoing methodology by which a lot of drugs 
are looked at.
    Again, I think in the past, if we looked at the work there, 
it was somewhat sporadic. There were different types of 
equipment that were being looked at, being used. The Japanese 
have continued over the years to continue that research.
    What our goal is, and we have just put a solicitation out, 
is to really look at the different methods, look at the 
different hardware that can be used. NASA has a project that is 
going on and we are partnering with to be able to, I don't want 
to say once and for all, but really look at this objectively, 
to be able to look at different ways to crystallize proteins 
and the methods by which we can look at them eventually on 
orbit, but also bring them back down in a way that we can get 
them into the right equipment areas or the right labs that can 
then look at them and use them for what they are for.
    But I think we have heard it clearly, talking to large 
pharma, bio-tech companies. They are very interested in this. I 
think finally now that we have station, everything is built, 
where we have a solid platform up there, good transportation 
capability back and forth, I think we will see protein 
crystallization is one of the areas that will grow on orbit, no 
doubt.
    Senator Nelson. Mr. Gerstenmaier, we worry about space 
debris and, from time to time, have to worry about lifting the 
orbit of the station in order to avoid space debris. Tell us 
about that.
    Mr. Gerstenmaier. We have some shielding on the outside of 
station that protects us from fairly small particles. Then 
there are the large objects that we can track, we can determine 
that they may come close to Space Station. We have a box that 
when we determine they will come inside that box, we actually 
can do a maneuver and maneuver Space Station to avoid a 
collision with those larger objects.
    And then there is another class in between that we really 
can't track yet, and they are actually larger than our shields. 
And we are at risk from those objects. We have protected the 
station as best we could. It has the best protection system of 
any spacecraft we have flown on the outside.
    We are continuing to improve that. We have made changes to 
both the Soyuz and the Progress vehicle. There will be a 
Russian EVA in August to actually add some more shielding to 
the Russian segment, which will help with debris protection.
    We also put onboard recently software. It used to take us 
about 3 days to get ready to do a debris avoidance maneuver. 
That software now is resident onboard, and we should be able to 
do a maneuver much quicker. We are working with our Russian 
colleagues to actually get the details of how we could do that.
    So, therefore, we could get identified from our tracking 
assets that there is an object that is going to come very close 
to station, and we should be able to maneuver in a very short 
period of time. So we are actively trying to improve the debris 
protection on station, both from a physical be able to move it 
standpoint and also improve the shielding onboard station.
    Senator Nelson. And I can't help but point out that debris 
is getting to be a problem in space, and the Chinese really 
added to the debris. When they did their ASAT test, it added 
tens of thousands of particles at sufficiently high altitude 
that it is going to take a long time for gravity to pull those 
items back to Earth.
    And of course, that is what we and the other space-faring 
nations have to worry about, and we try to track these, as Mr. 
Gerstenmaier said.
    Mr. Royston, let me ask you what is CASIS doing to reduce 
the time it takes to identify and fund research opportunities 
and get those experiments up to the station?
    Mr. Royston. That is a great question, Senator. As you 
know, and I think everybody in this room knows, businesses and 
the marketplace moves at the speed of light today. So if we go 
to them and say that, well, 4 years from now we think we can 
get you on orbit, and we might be able to do some good stuff, 
it is not going to work.
    So one thing, I definitely want to acknowledge the effort 
that has been on Bill's side, on the NASA side in the Payloads 
Office, to transition from their construction phase and now 
into their operational phase. And our organization works with 
the Payloads Office on a day-to-day basis on how we can 
streamline those--get more efficiency, streamline the processes 
and procedures by which to do that.
    And then the other thing is CASIS; what we want to be able 
to go out into industry and talk about with potential customers 
is the fact that we handle all of that for you, that we can be 
the organization which allows you to think of the National Lab 
as just another lab. It is a lab like going from here in 
Washington down to Raleigh to do some experiments.
    You don't have to worry about rockets and all kinds of 
different paperwork and science advisory panels and everything 
else. We are there to do that for you, and I think we are 
making real progress in that. And I think that is really our 
key, again, to attracting some of the big market that we want 
to bring into the National Lab, is to show them that it isn't 
painful to get up there.
    It might be 300 miles away, and it might be vertical, but 
it is not a big deal. It is a great laboratory. There is great 
opportunity, and we will hold your hand and get you there 
painlessly.
    Senator Nelson. Since we were talking about bone density 
loss, why don't you tell us about you are getting ready to fly 
a bone density scanner, and how does that play into the future 
osteoporosis research?
    Mr. Royston. Well, we are not quite ready to fly it yet. We 
are doing a study right now with reards to what are the best 
designs to be able to put a small bone scanner up there. So if 
we look at osteoporosis research, for instance, and we have an 
animal model that we are going to look at and be able to 
experiment with. One of our concerns, and I think we know it, 
as far as transportation--and we are coming online with other 
options--is down mass. How can we get things back to Earth?
    And I think what the real focus in the short term needs to 
be is how we can do things on orbit and get the data that we 
need. That is a perfect example of why we need to have a small 
bone scanner up there. So we are watching the effects of the 
osteoporosis drugs on a day-to-day basis without being able to 
bring specimens back or being able to do that.
    And I think that is really key not only as a bone scanner, 
but other equipment, whether it is the crystallography, 
Senator, as you mentioned, that we could do some determination 
or some review of the data or the crystals on orbit without 
waiting for the time it takes to get them back down to Earth.
    Dr. Pettit. And Senator, I would like to add that it is 
important to be able to collect more data points, particularly 
on human physiology, than preflight and post flight because 
there is a lot that happens in between, and we have no data. 
And we are working on improving that.
    This bone scanner would allow us one more way to poke and 
pummel astronauts on orbit to extract more nuggets of 
information from their physiology. And we are also working on 
getting advanced eye diagnostics on orbit, too, again to try to 
crack this problem of what is happening? What is causing the 
wrinkles in the eyes? When do they form?
    Do they form right away, or do they form toward the end of 
your mission? We don't know. And the only way we are going to 
find out the history of what happens when you get on orbit is 
to have these advanced diagnostic techniques that have been 
packaged from big laboratories and big centers on Earth somehow 
shrunk down, somehow that can work in the confines of this 
orbital frontier.
    And then we can use these instruments to collect data from 
the astronauts on orbit, and one side benefit to this is every 
time we can an advanced piece of equipment, medical diagnostics 
that we can use on Space Station, there shows up numerous 
places on Earth where this same technology can be applied to 
remote places that will help diagnose and correct ailments for 
people that never leave the planet.
    Senator Nelson. You know, we have come a long way. Mr. 
Gerstenmaier, remember when we flew John Glenn 50 years ago? We 
did not know what was going to happen to the human eyeball. And 
it has been rather extraordinary, our ability to experience 
space.
    Final question for Dr. Pettit and Mr. Reiter. What do you 
think we can do to raise the awareness of this unique structure 
that is out there that the public does not have much awareness 
of?
    Dr. Pettit. One way is through education of our students 
because the students are the future of this country. And they 
have--they have the wherewithal to take us to the next phase, 
and we don't want them to forget about what it means to fly in 
space and do this exploration.
    And when I talk to students, I like to ask, ``How many of 
you would like to do my job?'' And you would be amazed at how 
many want to do this. And I think you could say that there are 
more students that want to become an astronaut and fly in space 
than want to become President of the United States.
    And I think that is a good thing because we need them, we 
need the students in science and engineering and technology, 
and they need to have a strong foundation of math in order to 
work in those fields. And what would break my heart would be to 
talk to students and say we no longer can fly in space. We 
don't do that anymore. And that, that would break my heart.
    And we need to make sure that we can talk to the next 
generation and wind them up and point them in the right 
direction and let them carry the fire.
    Senator Nelson. And I can pretty well tell you we will.
    Mr. Reiter?
    Mr. Reiter. I can only support what Don has just mentioned. 
I think that these occasions where we directly tie in pupils 
from all over the world in experiments onboard the Space 
Station really show a remarkable effect. And Bill gave some 
experiments of the spider that is now on orbit, becoming the 
astrospider. And Don gave some experiments.
    Andre Kuipers, who was in orbit together with Don, he had 
some dedicated school experiments where there was a direct 
link, a live link to the station, and that was then 
disseminated in the schools not only in the Netherlands, but I 
think across the world.
    And there are beautiful examples. I just had beginning of 
the year the opportunity to attend an event which was dedicated 
to a U.S. experiment, SPHERES it is called, where you can bring 
developed software for little satellites that are flying with 
carbon dioxide cartridges, and you can let university students 
develop guidance, navigation, control algorithms, and that 
found a great interest all across the world.
    So I think here also there is a fantastic opportunity to 
work together, and I think also in bringing these experiences 
into schoolbooks can steer the interest of our young generation 
in space, in exploration, and steer this what is I believe in 
our genes to be curious, to see what is beyond the horizon.
    Thank you.
    Senator Nelson. Thank you.
    Senator Boozman?
    Senator Boozman. No questions.
    Senator Nelson. Gentlemen, thank you. A most informative 
session.
    Thank you, and the meeting is adjourned.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]
                            A P P E N D I X

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    Assembly of the International Space Station was completed last 
year. It took five space agencies from around the world to build it. 
While this by itself is quite an achievement, our attention has shifted 
from the construction phase to maximizing the scientific return on this 
investment. At its core, the space station is a laboratory and a 
classroom--a scientific and educational asset available not only to 
NASA, but to all Americans and the international community for 
research, discovery, and education. We have already seen important 
discoveries and progress from research conducted on the space station--
such as studies of treatments for debilitating diseases like 
osteoporosis, creation of new materials that the automotive and 
aerospace industries are interested in using, development of vaccines 
that may one day prevent deadly infections, and fundamental studies of 
the nature of our universe.
    The availability of half of the U.S. portion of the station for 
national lab managed research opens up the microgravity environment to 
private companies to test and develop new products and services for use 
on Earth. A constant American presence on the space station also 
presents a unique opportunity to inspire our children's interest in 
science, technology, engineering, and mathematics--the so-called STEM 
fields. We know how critically important STEM skills are for jobs of 
the twenty-first century, whether it is in advanced manufacturing, 
pharmaceuticals development, new computing technologies, or designing 
the next generation of spacecraft.
    Astronauts on the space station reach students around the world. 
Elementary school children can talk to and interact with astronauts via 
communication links through NASA, asking questions and watching the 
astronauts conduct experiments live 220 miles above the Earth. Just a 
few months ago here in Washington, D.C., I met with the student 
finalists from the YouTube Space Lab Challenge, an international 
contest for high school students to design an in-space science 
experiment. More than 2000 project ideas were submitted from students 
in more than 80 countries. Experiments from the two winning teams--one 
from Michigan and one from Egypt--lifted off for the space station just 
last Friday on board a Japanese robotic cargo spacecraft that is 
scheduled to berth with the space station this Friday. The students' 
experiments will be conducted by a NASA astronaut onboard the station. 
This is an unparalleled opportunity for these aspiring young scientists 
that I hope will encourage them and their peers to continue to pursue 
degrees and careers in science and engineering.
    Our time with the International Space Station is limited and I want 
to see this nation look back on our investment as both a great 
achievement and a stepping stone toward our continued scientific 
leadership, both here on Earth and in space. I look forward to the 
testimony from our witnesses today and to their perspectives on how we 
make the most of this unique national asset.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                            Donald R. Pettit
Maximizing ISS Utilization
    Question. Now that construction of the space station is complete, 
the goal has shifted to getting the most out of the station's research 
capacity. What metrics would tell us we are doing a good job maximizing 
productivity of the station?
    Answer. As Mr. Gerstenmaier reports in his answer to Senator 
Nelson's question, NASA tracks many metrics that show different 
dimensions of the productivity of the International Space Station 
(ISS). Monthly productivity metrics are collected on such metrics as 
numbers of investigations and investigators, science disciplines 
accommodated, facility occupancy, dedicated research crew time, numbers 
of countries involved, numbers of students reached, and numbers of 
scientific publications.
    From my perspective as an ISS astronaut, I would offer the 
following for consideration on utilization metrics for the ISS, which 
could be the basis for future improvements in monitoring and defining 
ISS progress.
    The International Space Station is a diverse laboratory in a harsh 
frontier environment where defining a single metric for success is 
difficult if not counterproductive. There are three distinct categories 
I believe are worthy of a metric to evaluate progress and each should 
be considered when it is appropriate to do so. One is for a mission 
covering a particular six person crew, another is for an annual review 
for the Space Station as a whole, and a third is for internal metrics 
developed as administrative/operational tools to aide in the allocation 
of crew time and resources.
    For a particular mission covering a six month period where nine 
individuals rotate to maintain a six person crew, the metrics should be 
based on the following: crew health, vehicle health, and completing the 
required work. Crew health covers the safety and well being of the 
crew, including following prescribed countermeasures and maintaining 
professional positive attitudes towards crewmates and mission control. 
Vehicle health is a divided responsibility between mission control and 
crew. Repair and maintenance of systems and research apparatus is 
essential to sustaining an operating vehicle in a harsh environment 
where logistic for spare parts and limited crew time can complicate 
matters. Vigilance by both crew and mission control is required to 
extend the useable life for vehicle thus creating an efficient safe 
environment where the mission work can be completed. The crew is part 
of a large international team that includes their crewmates as well as 
the control centers scattered over many countries. Being able to work 
together as a team is essential to mission success. Completing the 
required work is self-explanatory and includes completing the research 
objectives defined.
    An annual review for the Space Station as a whole includes research 
accomplishments as well as the overall state of the vehicle health. 
Accomplishments include both advances in scientific research as well as 
engineering research (engineering research includes prototype 
spacecraft systems operating in space using Space Station as a test 
platform). This evaluation should use the time-tested practice of 
external review for proposed projects and peer review when the final 
papers are published (this is currently being done for research on 
Space Station). This review process will ensure high quality ideas, 
projects, and final technical publications are maintained. The overall 
state of the vehicle should be reviewed on an annual basis to track 
factors affecting the long-term health and lifetime of the stack.
    Universities and National Laboratories (such as Los Alamos National 
Laboratory where I worked for 12 years) rely on similar peer review to 
maintain high quality research and use peer reviewed publications, 
citation indexes (how often a paper is cited by others working in the 
field), and patents as a part of the evaluation metric.
    It is essential to realize that it takes years to bring research to 
fruition whether at universities, national laboratories, or now, Space 
Station. Patience must be exercised when evaluating the research 
returns on a new endeavor (Space Station was just completed and placed 
in a full operational state last year).
    Internal metrics developed as administrative/operational tools are 
useful to aide in the allocation of crew time and resources. Such 
metrics, when taken out of context, may seem ill-fit; however, these 
were never intended as a means to evaluate over all Space Station 
performance. For example, consider maintenance and repair of a complex 
vehicle in a harsh environment (this applies to sail boats as well as 
to Space Station). If left unchecked, maintenance and repair could 
expand to take all available crew time. To ensure that a significant 
fraction will be available for mission research, an internal metric has 
been set to reserve about 1/3 of mission related crew work hours for 
research. This metric, as an internal administrative tool, has caused 
critical review of all maintenance procedures, resulting in a workable 
compromise where both research and maintenance are completed. The 
practice of using such internal metrics needs to be understood and kept 
separate from the metrics for evaluating Space Station.
    In closing, I believe there are three useful types of metrics for 
evaluating Space Station: (1) for the mission metrics of a particular 6 
person crew, (2) as an annual review of Space Station research and 
vehicle health, and (3) internal metrics used as administrative tools 
for allocation of resources and crew time. All three of these have a 
different emphasis and are each in turn useful when applied to their 
particular situation.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                        William H. Gerstenmaier
Maximizing ISS Utilization
    Question. Now that construction of the space station is complete, 
the goal has shifted to getting the most out of the station's research 
capacity. What metrics would tell us we are doing a good job maximizing 
productivity of the station?
    Answer. NASA tracks many metrics that show different dimensions of 
the productivity of the International Space Station (ISS). Monthly 
productivity metrics are collected on such metrics as numbers of 
investigations and investigators, science disciplines accommodated, 
facility occupancy, dedicated research crewtime, numbers of countries 
involved, numbers of students reached, and numbers of scientific 
publications. For example, the number of scientists participating in 
ISS research has grown to over 400 on every Expedition and the number 
of countries involved in ISS research and education activities during 
an Expedition is typically over 30. The ISS is a growing resource for 
the science community, serving such diverse science disciplines as 
biotechnology and biology, human research, physical science, Earth and 
space science, technology demonstrations and education. Over 31 million 
students in the United States have participated in demonstrations 
performed by crewmembers aboard the ISS over its lifetime. The ISS is 
stimulating young people to ask questions and pursue knowledge. With a 
careful review and adjustment of crew commitments, the crew time for 
research has consistently grown, and now typically exceeds the minimum 
requirement of 35 hours per week.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                             Thomas Reiter
Maximizing ISS Utilization
    Question. Now that construction of the space station is complete, 
the goal has shifted to getting the most out of the station's research 
capacity. What metrics would tell us we are doing a good job maximizing 
productivity of the Station?
    Answer. Any metrics (with the objective to compare the ISS ``R&D 
productivity'' with other terrestrial research establishment) is 
problematic as ``routine'' R&D on the ISS faces peculiar constraints 
and only recently changed from the build-up phase of ISS to an ``steady 
state utilisation operation''. Furthermore, research is not the only 
rationale for the ISS. Nevertheless, e.g., the following (not always 
quantifiable) parameters should be maximized:

  <bullet> Number and impact of articles in peer-reviewed scientific 
        magazines (remark: the challenge in interpreting this count 
        comes of the fact that it can take 5-10 years for a scientific 
        impact to be known, and because today there is no real bench 
        mark for comparison of what we accomplish in a space-based 
        laboratory with research that can't possibly be done elsewhere)

  <bullet> Number of patents or spin-offs (remark: the challenge in 
        interpreting these comes of the fact that not all commercial 
        intellectual property is patented or licensed, that commercial 
        entities sometimes conceal the space provenance of their 
        knowledge for competitive advantage)

  <bullet> Degree of compliance/mapping of ISS utilisation projects 
        with research priorities (as independently defined by 
        scientific community)

  <bullet> The degree to which we have minimized ``turnaround time'', 
        i.e., the time from the moment a proposal is accepted until the 
        PI holds the data/samples in his/her hands

  <bullet> Relevance of ISS utilisation for preparing/demonstrating 
        crucial technologies for exploration

  <bullet> Share of crew time spent for utilisation vs. non-utilisation 
        activities (possible comparison with similar remote research 
        facilities such as Concordia in Antarctic, NEEMO, etc.)

  <bullet> Number of student internships and thesis, education events, 
        student participation in science activities, etc. that are 
        related to ISS utilisation

  <bullet> Number of countries that can use the ISS for R&D (ESA e.g., 
        offers utilisation opportunities to all EU countries; this is 
        of particular importance for Europe, where not all European 
        states are member of ESA)

    It should be noted that the productivity of the ISS unfolds in many 
dimensions, which cannot be all exploited to their maximum at the same 
time due to limited resources. For example a simultaneous maximisation 
of both scientific/institutional and industrial/commercial utilisation 
is not possible. In reality a natural balance (driven by demand and 
merits) is considered being more realistic and providing different 
benefits within the various domains.
    NASA and ESA are working closely with the other ISS partners to 
track all research accomplishments and benefits jointly, and to 
coordinate our assessments and metrics of productivity. We look forward 
to working with NASA on new ``science of science'' approaches to 
address some of the measurement challenges mentioned above.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            James D. Royston
Maximizing ISS Utilization
    Question 1. Now that construction of the space station is complete, 
the goal has shifted to getting the most out of the station's research 
capacity. What metrics would tell us we are doing a good job maximizing 
productivity of the station?
    Answer. CASIS is focused strictly on quality opportunities to 
utilize Station, which is why all potential projects are subject to the 
Valuation and Prioritization process. This process was designed to 
identify projects with the most scientific merit and commercial promise 
and best return to U.S. taxpayers on their investment.
    CASIS currently has over 30 projects under review representing a 
myriad of research interests. The breadth of both proposed research and 
sponsoring institutions, both academic and commercial, serves as a good 
metric of increasing interest and forthcoming productivity. 
Additionally, plans to increase the ISS crew to seven would boost 
available crew time from 33 hours to 75 hours per week. This would 
greatly increase R & D productivity.
ISS Commercial Research
    Question 2. Mr. Royston, what is the status of the transfer of 
existing National Laboratory agreements from NASA to CASIS?
    Answer. All existing commercial agreements have been transferred to 
CASIS, with the exception of two. In accordance with the process 
established with NASA, agreements with other Federal agencies are next 
in line to be transferred to CASIS.

    Question 3. Please explain the ``extenuating circumstances'' you 
mention in your written testimony preventing the transition of two 
projects.
    Answer. One SAA is with Astrogenetix, a commercial space-based 
research company from Austin, Texas. The original research performed by 
Astrogenetix on ISS was in the area of virulence and vaccine target 
development as part of the initial NL Pathfinder research program. The 
transfer agreement has been under review by Astrogenetix since February 
2012, and they have not yet decided if they want to continue this 
project.
    The other remaining agreement is with Arizona State University's 
Bioscience Institute. The Institute's research in the area of virulence 
and vaccine development was part of the initial NL Pathfinder research 
program. CASIS has worked with ASU to address questions about the 
transition and a Memorandum of Understanding is currently being 
negotiated. They requested additional information about the CASIS 
Valuation and Project Approval process that was provided to ASU's legal 
department in July 2012. CASIS is confident the transition should take 
place soon.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                        William H. Gerstenmaier
    Question. Mr. Gerstenmaier, we were saddened to hear on Monday of 
the loss of the first American female astronaut, Sally Ride, to cancer. 
She will be remembered as a courageous pioneer who inspired girls 
everywhere to be excited about science. 25 years later in 2008, 
Minnesota native Dr. Karen Nyberg became the 50th woman to enter outer 
space and is scheduled to return to the ISS in May of next year. 
Despite such advances, entrance among girls and young women into fields 
such as physics and engineering continues to be disproportionately 
lower than men.
    Twenty-nine years after Sally Ride's first trailblazing mission, 
what can NASA do to inspire more women to enter the STEM fields, which 
are so critical to America's continued prosperity?
    Answer. We were equally saddened by the loss of Dr. Ride. She was 
an American hero, and a role model for generations of girls. NASA has a 
longstanding education partnership with Sally Ride Science, and they 
manage the EarthKam activity for the Agency, which allows middle school 
students to study the Earth using a camera installed on the 
International Space Station. We also agree with you that it is 
important to continue working to increase the number of women entering 
the STEM fields. NASA is taking advantage of its unique resources, 
including people, assets, and facilities to further inspire women and 
girls.
    Recent data released this year by the Girl Scouts Research 
Institute shows that girls are already interested in math and science. 
However, they are also interested in numerous other fields of study, 
which compete with STEM fields when choosing majors in college and 
careers thereafter. A major finding of the study showed that female 
mentors in STEM fields and exposure to those fields is important when 
girls choose their future paths. As such, NASA is committed to 
providing mentors and numerous outreach opportunities to young women 
and girls. The following are only a small representation of the varied 
opportunities NASA offers across the nation, in hopes of inspiring the 
next generation of young women and girls to enter and remain in 
science, technology, engineering, and math careers.
    The referenced Girl Scouts Research Institute Report can be found 
here: http://www.girlscouts.org/research/publications/stem/
generation_stem_what_girls_
say.asp
    NASA facilitates volunteer opportunities for our STEM employees for 
the mentoring of young girls through the following programs:

  <bullet> Aspire 2 Inspire (http://women.nasa.gov/a2i)

  <bullet> NASA G.I.R.L.S. (http://women.nasa.gov/nasa-g-i-r-l-s)

  <bullet> NASA WISH (http://women.nasa.gov/wish)

  <bullet> NASA SISTER (http://women.nasa.gov/outreach-programs)

    NASA is committed to allowing our employees to perform outreach 
activities as their schedules permit. Many of these outreach activities 
focus on underrepresented groups in STEM. For example, through NASA's 
Teaching From Space program, the program targeted female middle school 
students with the development of a ``Women in STEM'' video. In 
collaboration with NASA Public Affairs Office, Teaching From Space used 
the STS-131 mission and the role of crewmember Dottie Metcalf-
Lindenburger, a former classroom teacher turned astronaut, to showcase 
NASA career opportunities for females (http://www.nasa.gov/audience/
foreducators/top
nav/materials/listbytype/Women_at_NASA.html). NASA also maintains a 
Speaker's Bureau to provide speakers for public inquiries, often 
responding to requests to speak to women and girls.
    NASA is committed to communicating the message that STEM is for 
everyone using role models young women and girls have in areas outside 
of STEM fields. One such example is collaboration with award-winning 
recording artist Mary J Blige to encourage young women to pursue 
exciting experiences and career choices through studying science, 
technology, engineering and mathematics. A public service announcement 
featuring Associate Administrator for Education and veteran NASA space 
shuttle astronaut Leland Melvin and Blige can be viewed here: http://
www.nasa.gov/offices/education/programs/national/summer/media/
blige_melvin
.html
    NASA is committed to creating opportunities for students in STEM 
programs at the Nation's universities. The Motivating Undergraduates in 
Science and Technology (MUST) project awards scholarships and 
internships to undergraduates pursuing degrees in STEM fields. In FY 
2010, the MUST project hosted 100 students, of whom 55 percent were 
women and 27 percent of the scholars self reported being the first in 
their family to attend college.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                        William. H. Gerstenmaier
    Question 1. Mr. Gerstenmaier, with the retirement of the Space 
Shuttle, the United States is in need of finding a means to transport 
cargo and experiments to and from the International Space Station 
(ISS). In order to serve this need, the United States will surely be 
looking at possible launch sites to serve the ISS. It is my 
understanding that the flight trajectory from the NASA Wallops Flight 
Center to the ISS has some advantages, and could be viewed as more 
favorable and efficient than other sites located around the U.S. What 
do you see as the future of NASA Wallops in terms of its relationship 
with the ISS?
    Answer. NASA currently has two companies under contract to provide 
resupply services to the ISS. One of the two companies, Orbital 
Sciences Corporation, selected Wallops Flight Facility (WFF) as its 
launch location for ten scheduled missions (two development flights and 
eight cargo flights). By virtue of Orbital's selection, WFF will be 
providing integration and testing services and launch operations 
support for 2-3 launches annually for the duration of Orbital's 
existing contract, and potentially longer.

    Question 1a. What benefits does NASA Wallops have in serving the 
ISS?
    Answer. Due to the inclined orbit of ISS, only two established U.S. 
launch sites are suitable to support resupply missions, the USAF's 
Eastern Range in Florida, and NASA's Wallops Flight Facility (WFF) in 
Virginia. The geometry of the ISS orbit results in a slight technical 
advantage for launches conducted from WFF, allowing additional mass to 
be lifted to the same orbit using a comparable rocket. In addition, as 
a NASA facility, WFF offers the opportunity to leverage already-funded 
NASA launch range and institutional capabilities, resulting in cost 
savings. The current arrangement of two contractors operating from 
different launch sites also provides NASA with increased flexibility 
and reliability, assuring that critical resupply needs are not 
interrupted due to launch range schedule conflicts, a launch vehicle 
fleet technical issue, or facility damage resulting from severe 
weather.

    Question 2. Mr. Gerstenmaier, as we have previously discussed, 
there is a lot of promise in pharmaceutical research in the 
microgravity environment of low-Earth orbit in which the International 
Space Station operates. Can you provide a status update on your efforts 
for pharmaceutical research in micro-gravitational environments?
    Answer. The best known of the recent pharmaceutical projects using 
the ISS--the vaccine development work of Astrogenetix--has completed 
flight experiments needed to identify mutant bacterial strains the 
company believes will enable the development of effective vaccines 
against Salmonella and methicillin-resistant Staphylococcus aureus 
infection. Astrogenetix is seeking venture funding to support clinical 
trials and further development.
    Future ISS-based research in pharmaceutical development will be 
conducted through the organization selected in 2011 to manage non-NASA 
use of the ISS National Laboratory, the Center for the Advancement of 
Science in Space (CASIS). The initial CASIS Board of Directors includes 
a cross-section of leaders from several scientific disciplines and 
pharmaceuticals research. CASIS is currently developing lines of 
research identified by a panel of biomedical scientist from a survey of 
prior space research as holding significant promise for commercial 
participation, and the 7-member board recently named will select an 
additional 8 members with the intent of including prominent individuals 
from various industries.

    Question 2a. Are pharmaceutical companies interested in partnering 
on this initiative?
    Answer. CASIS, through the science team assembled to steer the 
development of its pharmaceutical research plans, has conducted surveys 
to identify corporate interest in new research thrusts. There is an 
interest and recognition on the part of industry of the value of 
pharmaceutical research in the microgravitational environment, and the 
level of corporate interest, and corporate willingness to invest in 
space research, is a major factor in selecting new research projects. 
It does take time, however, to translate that interest into investment.

    Question 2b. What obstacles are you encountering in seeing that 
this research gets done?
    Answer. Some research projects involve new operational challenges. 
The upcoming experiments with mice on the ISS, for example, will be the 
first experiments on the ISS with rodents, and the mice will be flying 
for the first time in a SpaceX Dragon capsule. Another obstacle is the 
increasingly cautious investment climate for commercial research and 
development, including pharmaceutical research. The pharmaceutical 
industry is scaling back its expenditures in basic research, and 
focusing on more mature concepts. They're looking for comprehensive 
evidence to justify investments. That is a challenge in an exploratory 
field like space biology.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                            James D. Royston
    Question. Mr. Royston, in your testimony you stated that CASIS is 
currently working with NASA regarding the handling of Intellectual 
Property and Data Rights. As you said, it is paramount to get this 
right in order to secure commitments from commercial users. For some of 
these potential users, the assurance that their IP is safe and 
protected could be the difference in deciding whether or not to conduct 
research and development on board Station. Ultimately, the IP issue 
could very well determine the success CASIS has in its overarching goal 
of maximizing ISS utilization. What is CASIS doing to provide this 
assurance to companies, that if they choose to do research with ISS NL 
their IP is safe and secure?
    Answer. CASIS is working with NASA to establish a legal regime that 
protects researcher data rights and intellectual property in compliance 
with applicable Federal law. Without such guarantees, commercial 
interests are unlikely to commit to any significant use of the ISS 
National Lab. Efforts are ongoing and expectations are that a solution 
will be found that will encourage commercial use of station.

                                  <all>

</pre></body></html>
